<html>
<title> - NEXT STEPS IN COTE D'IVOIRE</title>
<body><pre>[Senate Hearing 112-363]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-363

                      NEXT STEPS IN COTE D'IVOIRE

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
73-914 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
RICHARD J. DURBIN, Illinois          MIKE LEE, Utah
TOM UDALL, New Mexico                BOB CORKER, Tennessee

                              (ii)        











                            C O N T E N T S

                              ----------                              
                                                                   Page

Cooke, Jennifer, Director of Africa Studies, Center for Strategic 
  and International Studies, Washington, DC......................    28
    Prepared statement...........................................    30
Coons, Hon. Christopher A., U.S. Senator from Delaware, opening 
  statement......................................................     1
Fitzgerald, William, Deputy Assistant Secretary of State, Bureau 
  of African Affairs, U.S. Department of State, Washington, DC...     7
    Prepared statement...........................................     8
    Responses to questions submitted for the record by Senator 
      Christopher A. Coons.......................................    52
Gilpin, Dr. Raymond, Director of the Center for Sustainable 
  Economies, U.S. Institute of Peace, Washington, DC.............    36
    Prepared statement...........................................    37
Inhofe, Hon. James M., U.S. Senator from Oklahoma, opening 
  statement......................................................     3
Isakson, Hon. Johnny, U.S. Senator from Georgia, opening 
  statement......................................................     3
Lindborg, Hon. Nancy E., Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development (USAID), Washington, DC..........    10
    Prepared statement...........................................    12
    Responses to questions submitted for the record by Senator 
      Christopher A. Coons.......................................    53
McGovern, Michael, Assistant Professor of Anthropology and 
  Director of Graduate Studies of African Studies, Yale 
  University, New Haven, CT......................................    23
    Prepared statement...........................................    25

              Additional Material Submitted for the Record

April 29, 2011, Foreign Policy Magazine article, ``What the World 
  Got Wrong in Cote D'Ivoirre'' submitted by Senator James M. 
  Inhofe.........................................................    49

                                 (iii)

  

 
                      NEXT STEPS IN COTE D'IVOIRE

                              ----------                              


                         THURSDAY, MAY 19, 2011

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons (chairman of the subcommittee) presiding.
    Present: Senators Coons, Isakson, and Inhofe.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I'm pleased to chair today's Africa 
Subcommittee hearing entitled ``Next Steps on Cote d'Ivoire.'' 
I'd like to call the subcommittee to order.
    I am privileged to serve in this capacity with my good 
friend Senator Isakson. And I want to take the opportunity to 
thank him for his partnership in leading this subcommittee.
    Cote d'Ivoire, as we all know, is emerging from a severe 
political military crisis that followed historic elections held 
on November 28, 2010. Just to underscore, these were, in many 
ways, the first truly national elections in Cote d'Ivoire's 
history, with candidates representing every region in the 
country. And while President Ouattara's victory was certified 
by the Ivoirian Independent Electoral Commission and the United 
Nations, Mr. Gbagbo, the former President, refused to recognize 
these results. The subsequent violence and conflict that 
emerged resulted in the tragic death of nearly 1,000 Ivoirians 
and the displacement of up to a million people. Fortunately, 
the armed conflict largely ended, days after Mr. Gbagbo's 
arrest on April 11, and President Ouattara was sworn in, less 
than a month later, with a formal inauguration plan for next 
week.
    I am pleased that President Ouattara has recently 
reaffirmed his commitment to ensuring accountability for those 
implicated in the violence, including forces loyal to both him 
and former President Gbagbo. As President Ouattara asserted on 
his recent state visit to Senegal, ``No one is above the law. 
All those who have committed crimes of blood will be 
punished.'' Real political reconciliation, in addition to 
accountability and justice for all, are absolutely essential to 
promoting a stable and prosperous future, in my view, in Cote 
d'Ivoire.
    Political reconciliation will be a very real challenge for 
the nation and for President Ouattara, who has made it a top 
priority, along with restoring security, addressing some very 
real human rights abuses that have occurred, ensuring 
transitional justice, reviving the economy, and reforming the 
security sector.
    Today's hearing will provide an opportunity to hear several 
perspectives on this recent history and the ambitious agenda 
for the nation, going forward, and to consider the role of the 
United States and the international community in supporting 
President Ouattara as he addresses governance issues and 
humanitarian concerns.
    Today's hearing will also consider the role of multilateral 
institutions such as the United Nations, the African Union, and 
the Economic Community of West African States, known as ECOWAS, 
in response to the conflict, as well as regional implications 
of these difficult recent events.
    Cote d'Ivoire, as we all know, is an important economic hub 
in Africa; as well, the world's largest cocoa producer and one 
of the largest U.S. trading partners in the region. We will, 
therefore, also today explore economic consequences of this 
recent crisis and steps forward toward economic recovery and 
growth.
    An additional goal of today's hearing is to consider 
military sector reform, which has been a very real challenge 
since the Ivoirian civil war of 2002. We will hear 
recommendations for the disarmament, demobilization, and 
reintegration process which President Ouattara has undertaken, 
and steps forward to create a unified military that could offer 
real protection to the Ivoirian people and serve as a source of 
stability in the region, if successful.
    I was deeply concerned about allegations of mass atrocities 
carried out by both sides in this conflict. And I am disturbed 
by reports of ongoing looting and violence in Abidjan. I also 
am acutely aware of the continuing humanitarian crisis, and 
look forward to hearing about the strategy for providing 
assistance to refugees, to those displaced persons, and 
Ivoirians facing ongoing security concerns.
    Beyond the immediate crisis, I look forward to hearing 
suggestions about how the international community can best 
support the new Ouattara government as it attempts to address 
the underlying, lasting causes of instability in Cote d'Ivoire. 
In my view, it's essential to build upon lessons learned from 
this past election in order to build stronger institutions of 
governance going forward, especially as Cote d'Ivoire prepares 
for legislative elections.
    As President Obama said, in a speech delivered earlier just 
today, ``We in America have a stake, not just in the stability 
of nations, but in the self-determination of individuals.'' I 
agree with this statement, and believe it should serve as a 
guiding principle for our foreign policy.
    We will have two panels today, to speak to these 
challenging and current questions about Cote d'Ivoire and its 
future, composed of representatives from the State Department 
and USAID, and then the second panel consisting of 
nongovernmental experts on West Africa and, in particular, Cote 
d'Ivoire.
    First, we'll be hearing from Bill Fitzgerald, Deputy 
Assistant Secretary of State for African Affairs, who will 
discuss the U.S. diplomatic priorities in Cote d'Ivoire and the 
administration's plan for the country, going forward. We will 
next hear from Nancy Lindborg, assistant administrator for 
democracy, conflict, and humanitarian assistance at USAID, who 
will discuss the humanitarian efforts undertaken by USAID, and 
its plans for supporting this critical political reconciliation 
and economic recovery.
    On our second panel, we'll hear from Dr. Michael McGovern, 
assistant professor of anthropology at Yale, who will discuss 
the prospects for this important political reconciliation and 
the challenges of demilitarization. Then, Jennifer Cooke, 
director of Africa Studies at the Center for Strategic and 
International Studies, will discuss the role of the 
international community and regional implications of these 
events in Cote d'Ivoire. Finally, we will hear from Dr. Raymond 
Gilpin, director of the Center for Sustainable Economies at the 
U.S. Institute of Peace, who will discuss the economic causes 
and consequences of instability in Cote d'Ivoire and provide 
suggestions for how we can best support and sustain its 
economic health and growth, going forward.
    I'd like to, at the outset, thank all of our witnesses for 
being here today, and for contributing to this important 
hearing. And I look forward to your testimony.
    Senator Isakson.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman. It's the custom 
of this subcommittee for opening statements to be reserved to 
the ranking member and the chair, with the chair going first, 
ranking member second. Out of deference to Senator Inhofe, 
who's made a request to make an opening statement, I will yield 
my time to him, with the understanding I'll have my say during 
the question and answer period, later on, if that's OK with the 
Chair.
    Senator Coons. Thank you, Senator Isakson. I appreciate 
your courtesy to Senator Inhofe, and invite Senator Inhofe to 
make a brief opening statement.

           OPENING STATEMENT OF HON. JAMES M. INHOFE,
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Mr. Chairman, I also appreciate the fact 
that you have offered to give me time, and, in addition to that 
time, of course, that which has been yielded by Senator 
Isakson.
    As you know, Mr. Chairman, I spoke four times on the Senate 
floor in the last month on the tragic civil war that unfolded 
in Cote d'Ivoire and which ended with a full-scale attack upon 
the city of Abidjan by the rebel forces of Alassane Ouattara, 
the United Nations, and the French military. At the end of that 
military operation, President Gbagbo and his wife Simone were 
captured by the French military forces, acting with rebel 
forces loyal to Ouattara. Now, while I was thankful that both 
the President and the First Lady were taken alive, both were 
mutilated and brutalized. And I condemned the use of so-called 
peacekeeping forces, made up of the United Nations, and the 
French forces, which attacked the city of Abidjan and the 
Presidential palace that--it is these forces that have caused 
countless deaths.
    I happen to know--I'm very familiar with that area. I've 
been there many times. I've been to Cote d'Ivoire, to Abidjan, 
specifically, almost 15 times--maybe 15 times. That area, right 
there, is an area that was detonated--there are small--I have 
no idea--of knowing how many, in that particular picture of 
people, citizens of Abidjan, were burned to death.
    And I have to say that the African--it's not a role of the 
United Nations, and I question why the French participated in 
this battle. The African Union, a supporter of ousting 
President Gbagbo, has since come out and condemned what it 
called foreign military intervention. In addition, President 
Museveni, of Uganda, has said, on November 11--on--I'm sorry, 
on April 11, 1 day prior to the capture of the Gbagbos--and I'm 
going to read this. This is a quote, now, from President 
Museveni, ``I have not been happy with the way the United 
Nations and the international community, especially the French, 
have responded to the events of the post-election Ivory Coast. 
I'm not pleased with the way the international community can 
sanction a situation of bloodbath in the domestic affairs of 
African countries. I would prefer a peaceful intervention by an 
African Union committee that would investigate into the matter, 
give the parties a fair hearing, and come out with a workable 
recommendation that can promote peace and stability in the 
region.''
    Other Africans, Mr. Chairman--the current African Union 
Chairman Obiang also condemned this military intervention in 
Cote d'Ivoire by saying, ``Africa does not need any external 
influence. Africa must manage its own affairs.''
    Kenyan President Odinga, was also quoted as saying that 
President Gbagbo ``has been captured. And I say that he should 
not be hurt. I have actually already sent word to Mr. Ouattara 
saying that Gbagbo should not be hurt. If he wants to go out 
into exile, he should be allowed to go into exile. But, he 
needs to be treated humanely.'' Remember the world ``exile,'' 
because we're going to come back to that.
    And former South African President Mbeki has written an 
eloquent condemnation of the United Nations and the French-led 
civil war in the April 29 edition of Foreign Policy magazine. I 
strongly recommend that the members get this. And I'll make 
sure they have copies of this.
    Mr. Chairman, I had warned the State Department and the 
United Nations and the French, on the Senate floor, in four 
separate times last month, that they would have blood on their 
hands if they continued supporting the rebel forces of Ouattara 
and continued the bombing the financial capital of Cote 
d'Ivoire, Abidjan, and did not agree to an immediate cease-
fire. I said, on April 4, that ``I think we can avert a real 
tragedy, something maybe comparable to what happened in the 
1994 Rwanda genocide.'' I called for a cease-fire and no one 
responded.
    Next day, April 5, I said, on the Senator floor, that, 
``Ouattara has tried to deny his involvement in the slaughter 
of up to 1,000 innocent civilians, in the western town of 
Deukoue. His forces took out the town earlier last week''--now, 
this is on April 5 that I made this statement--``after the 
Gbagbo forces had gone.'' Now, the Gbagbo forces weren't there.
    What you're looking at here--this is--these are hundreds--
and I can't tell you--quantify them--somewhere up to 1,000 
people in the town of Deukoue that were murdered by the 
Ouattara forces. Look at them, down in the far left. The other 
pictures were actually in other communities around there. I 
can't really identify that, but they're in that vicinity. Those 
pictures down there were the ones that Ouattara's forces came 
in and brutally murdered.
    I called, again, for a cease-fire, and with no response. 
That was on April the 7th. On April 7 and 8, I pointed out that 
the U.N. and French were bombing downtown Abidjan, near the 
Presidential palace, where hundreds of young supporters of 
President Gbagbo had encircled the Presidential palace in a 
human shield for the bombing. Who knows how many of them were 
killed. This is what they did. These were young kids--baseball 
bats, boards that were up there. There they are. That's all of 
these young kids. You can't see how young they are. You can, if 
you look up close. I invite you to come up and look. But, all 
of these are different places. That happens to be a garage. You 
can see that they're working on there. And these are the kids 
that are crying and are--you can tell they've been abused. We 
don't how many of them were killed during this process.
    Mr. Chairman, I pointed out, in April 8, that there were 
roving Ouattara death squads who were ``disappearing''--they 
use that word instead of ``killing''--disappearing supporters 
of President Gbagbo--meaning, killing them. I called again for 
immediate cease-fire. No one responded. That is the--and you 
can tell by what they're wearing, those are the Ouattara death 
squad. Those are the individuals, let there be no doubt about 
that.
    So, Mr. Chairman, I also pointed out that I believe a 
massive voter fraud occurred in November 28, in 2010, in the 
Cote d'Ivoire Presidential election between President Laurent 
Gbagbo and the rebel leader Ouattara. I submitted evidence, in 
two letters, to the State Department that showed massive voter 
fraud and to steal the election. In one instance, it showed 
that the first round of the Presidential election--this is very 
significant--not quite yet--the first round was--they had, in 
the--what we would call the primary election, the President, 
President Gbagbo, got thousands and thousands of votes in the 
northern areas, the Muslim areas, the areas which were 
Ouattara's areas. And yet, when they had the next election--we 
would call that, here in the United States, a runoff--he got 
zero. That is a statistical impossibility. Everybody here knows 
it.
    In another case, the voter tabulation return sheet for one 
of the five regions in the rebel-held north showed that 
Ouattara received an extra 94,000 votes made up out of thin 
air. We don't know where they came--just in the tabulation. 
Now, you can see very clearly--that's the official tabulation. 
If you look to the results, on this side over here, the total 
of that would be 149,000 votes. However, they recorded, as you 
can see, 244,000 votes, an additional 94,000 votes. Now, if you 
do your math and you figure out how many of these areas are up 
there--clearly, if this type of abuse went on in the rest of 
them, it was Gbagbo who won the election.
    The Department of State responded to this allegation, on 
April 8, by claiming that this document appeared to be 
fraudulent, without offering any proof. And I'm going to ask 
these government witnesses today--and they know I'm going to 
ask, because I already sent a letter telling them I was going 
to ask--on the record, what, if any, investigation into the 
authenticity of this document was undertaken. I will also ask 
them, on the record, if that document is fraudulent.
    So, Mr. Chairman, despite my warnings, all that I predicted 
and warned against came to a pass. An orgy of bloodletting 
occurred during the Ouattaran offensive, which was joined by 
the United Nations and the French. They have left behind 
villages and streets filled with the stench of rotting bodies.
    And there you can see it, right there. That is in Abidjan. 
The bottom left, you can see that they are burning the bodies 
down there. You can see the--what the stench is. We have 
witnesses that said that there were hogs eating the remains of 
the charred bodies that were lying in the street.
    Down there, the next one to the right, in the lower right, 
he's about to be executed. You can see the gun is to his head.
    And the top one, that happens to be the Interior Minister 
of President Gbagbo. He was shot in the face, just enough to 
leave him alive and let him die a very slow death. That's the 
picture, right up there in the top right.
    Senator Coons. Senator----
    Senator Inhofe. Interior Minister.
    I call, again, for an independent investigation into all 
atrocities committed by all military forces involved in the 
fighting in Cote d'Ivoire. And I call for the United Nations 
and the French and the Ouattaran forces to halt the immediate 
death squads, still roving--it's happening right now--around 
the streets in Abidjan, killing people out in the streets.
    You know, I have several friends who are hiding. I've had 
personal conversations--you can't use their names, because 
they're killing all of them that they can find--where they 
witness the deaths taking place out in the street, and they 
can't even go out there, because they know that they would be 
considered to be a Gbagbo supporter, and they, too, would be--
--
    Senator Coons. Senator, please conclude in 1 more minute, 
if you would.
    Senator Inhofe. Well, I'm--I will conclude; this is the 
last page.
    So, last, I'll ask the witnesses if they have any 
information about the whereabouts and conditions of both 
President and Simone Gbagbo. Ouattara has decades-long 
political, and now militant, foes of the Gbagbos. I've read the 
books about it. We all know it goes back to the 1990s. And I 
fear that great harm will come to the Gbagbos now if they 
remain in separate secret locations under this control. I would 
like to know what our State Department is doing to ensure their 
safety. And I renew my demand for the United--that the United 
States step in and examine the possibility of seeking a place 
of exile for the Gbagbos.
    I have already located one place in one of the major 
countries in sub-Sahara Africa. They're willing to take him 
into exile. This is going to be my plea when I talk to the 
witnesses.
    Thank you for your tolerance, Mr. Chairman.
    Senator Coons. You're welcome, Senator.
    I'd like to now turn it over to our witnesses, our first 
panel, starting with Deputy Assistant Secretary Bill 
Fitzgerald, and then followed by Assistant Administrator 
Lindborg. If you would, please limit your comments to roughly 5 
minutes. Your full testimony will be placed in the record, 
although, given the issues that have just been raised, feel 
free to keep your comments to about 5 minutes.

STATEMENT OF WILLIAM FITZGERALD, DEPUTY ASSISTANT SECRETARY OF 
  STATE, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Fitzgerald. Yes. Thank you very much, Mr. Chairman.
    Mr. Chairman, Ranking Member Isakson, and members of the 
committee, thank you for this opportunity to testify before you 
today on Cote d'Ivoire.
    The post-election crisis in Cote d'Ivoire sharpened 
international focus on democracy and good governance in sub-
Saharan Africa. The resolution of the crisis in favor of 
democracy sends a clear message to would-be dictators and 
antidemocrats across the continent that neither Africans nor 
the international community will stand for ignoring the 
peoples' voice, as expressed through the ballot box. Democracy, 
of course, does not begin nor end at the ballot box, but it is 
an important step to building accountable governance. The 
United States and its international partners must now step 
forward to work with the newly elected government to rebuild 
Cote d'Ivoire for all Ivoirians.
    First, let me express our concern for the very real human 
tragedy that has befallen the Ivoirian people as a result of 
this political crisis. The road to democratic elections was a 
long and turbulent one. In fact, the fall 2010 Presidential 
elections were the culmination of nearly 10 years of 
international community engagement to broker peace in Cote 
d'Ivoire. The post-election political crisis involved gross 
abuses of human rights, crippled the country's once-vibrant 
economy, exacerbated existing divisions among Ivoirians, and 
allowed armed groups to take advantage of weakened security 
institutions. The international community must remain engaged 
in Cote d'Ivoire to help as the Ivoirian Government takes on 
the challenge of rebuilding and reconciling a fractured nation.
    Moving forward, we will work with our international 
partners to support the Ivoirian Government as it addresses 
national reconciliation, economic recovery, and, above all, 
security sector reform, and as a response to the ongoing 
humanitarian crisis.
    President Ouattara has pledged to make national 
reconciliation a primary focus of this Presidency. He recently 
created a Dialogue, Truth, and Reconciliation Commission, and 
named former Prime Minister Charles Konan Banny as chairman.
    The Commission's specific plan of action has not been 
finalized, but President Ouattara has indicated that the 
Commission will also include two religious leaders, one 
Christian and one Muslim. As a vehicle for national dialogue 
and reconciliation process, the Commission can shed light on 
the events in the post-election period and can also be a forum 
for Ivoirians to participate in a reconciliation process, 
again, after 10 years of instability and intermittent armed 
conflict. To achieve lasting results, reconciliation efforts, 
however, must be Ivoirian-led, with support from the 
international community, as needed.
    As we await details on how the Commission will operate, we 
are encouraging President Ouattara and his government to 
embrace good governance and transparency to create a wider 
culture of reconciliation. Indeed, ensuring accountability for 
those who committed serious human rights abuses will be an 
important aspect of national reconciliation.
    The United State cosponsored a resolution, at the U.N. 
Human Right Council in Geneva, that created a Commission of 
Inquiry to investigate allegations of abuses and violations of 
human rights committed by both sides since November 28. Indeed, 
the Commission is currently in Cote d'Ivoire, carrying out its 
mandate to ``investigate the facts and circumstances 
surrounding the allegations in order to identify those 
responsible for such acts, and bring them to justice.''
    Again, President Ouattara has repeatedly promised to 
cooperate with the Commission of Inquiry's findings, regardless 
of whether his forces or former President Gbagbo's troops or 
militiamen were involved. We will hold him to that promise. We 
will ensure that there is no impunity for those who carried out 
these egregious human rights violations.
    Former President Gbagbo remains under house arrest in 
northern Cote d'Ivoire, under the joint protection of the U.N. 
force, UNOCI, as well as President Ouattara's republican 
forces. President Ouattara's government is currently 
investigating what, if any, charges can be brought against Mr. 
Gbagbo and his coterie, domestically. He has also said that he 
supports the International Criminal Court's role in 
investigating alleged abuses since the crisis began.
    We remain concerned about abuses allegedly committed by 
Ouattara's republican forces, and will press for full 
accountability for all human rights violators. Accountability 
and a meaningful reconciliation process will be essential not 
only for Cote d'Ivoire's future, but for regional stability in 
the wake of the Ivoirian crisis. With some 200,000 Ivoirian 
refugees in Liberia, President Ouattara must create a stable 
and peaceful environment to allow them to return. Particularly 
in the west, I would say, it is absolutely essential for 
security forces to stand up. That includes members of the 
peacekeeping forces, because it is in the west where the bulk 
of the violence has been carried out.
    Now, I'm going to submit the rest, and I'll cut to my close 
to allow as much time as possible for questions.
    But, I say, we remain committed to working with President 
Ouattara and the Ivoirian people to help reestablish Cote 
d'Ivoire as the beacon of stability and economic prosperity as 
it once was. A prosperous, peaceful Cote d'Ivoire is an asset 
to the region and to the continent. We look forward to playing 
a part in the hopeful future that lies ahead.
    Again, thank you, Mr. Chairman, for the opportunity to 
speak. And I'm looking forward to the ability and the chance to 
answer any questions.
    Thank you.
    [The prepared statement of Mr. Fitzgerald follows:]

                Prepared Statement of William Fitzgerald

    Mr. Chairman, Ranking Member Isakson, and members of the committee, 
thank you for this opportunity to testify before you today on Cote 
d'Ivoire. The post-election crisis in Cote d'Ivoire sharpened 
international focus on democracy and good governance in sub-Saharan 
Africa. The resolution of the crisis in favor of democracy sends a 
clear message to would-be dictators and antidemocrats across the 
continent that neither Africans, nor the international community, will 
stand for ignoring the people's voice as expressed through the ballot 
box. Democracy does not begin or end at the ballot box, but it is an 
important step to building accountable governance. The United States 
and its international partners must now step forward to work with the 
newly elected government to rebuild a Cote d'Ivoire for all Ivoirians.
    First, let me express our concern for the very real human tragedy 
that has befallen the Ivoirian people as a result of the political 
crisis. The road to democratic elections was a long and turbulent one. 
The fall 2010 Presidential elections were the culmination of nearly 10 
years of international community engagement to broker peace in Cote 
d'Ivoire. The post-electoral political crisis involved gross abuses of 
human rights, wounded the country's once-vibrant economy, exacerbated 
existing divisions among Ivoirians, and allowed armed groups to take 
advantage of weakened security institutions. The international 
community must remain engaged in Cote d'Ivoire to help as the Ivoirian 
Government takes on the challenge of rebuilding and reconciling a 
fractured nation. Moving forward, we will work with our international 
partners to support the Ivoirian Government as it addresses national 
reconciliation, economic recovery, and security sector reform, and as 
it responds to the ongoing humanitarian crisis.
    President Ouattara has pledged to make national reconciliation a 
primary focus of his Presidency. He recently created a Dialogue, Truth, 
and Reconciliation Commission (DTRC), and named former Prime Minister 
Charles Konan Banny as chairman. The DTRC's specific plan of action has 
not been finalized, but President Ouattara has indicated that the 
Commission will also include two religious leaders (a Christian and a 
Muslim.) As a vehicle for a national dialogue and reconciliation 
process, the DTRC can shed light on the events in the post-election 
period and also be a forum for Ivoirians to participate in a 
reconciliation process after a decade of instability and intermittent 
armed conflict. To achieve lasting results, reconciliation efforts must 
be Ivoirian-led, with support from the international community as 
needed. As we await details on how the DTRC will operate, we are 
encouraging President Ouattara and his government to embrace good 
governance and transparency to create a wider culture of 
reconciliation.
    Ensuring accountability for those who committed serious human 
rights abuses in the post-election period will be an important aspect 
of national reconciliation. The United States cosponsored a resolution 
at the U.N. Human Rights Council that created a Commission of Inquiry 
to investigate allegations of abuses and violations of human rights 
committed by both sides since November 28. The Commission is currently 
in Cote d'Ivoire, carrying out its mandate to ``investigate the facts 
and circumstances surrounding the allegations . . . in order to 
identify those responsible for such acts and bring them to justice.'' 
President Ouattara has repeatedly promised to cooperate with the 
Commission of Inquiry's findings, regardless of whether his forces or 
former President Gbagbo's troops or militiamen were involved. We will 
hold him to that promise and ensure there will be no impunity.
    Former President Gbagbo remains under house arrest in northern Cote 
d'Ivoire under the joint protection of United Nations Operation in Cote 
d'Ivoire and President Ouattara's Republican Forces. President 
Ouattara's government is currently investigating what, if any, charges 
can be brought against Mr. Gbagbo and his coterie domestically. 
Ouattara has also said that he supports the International Criminal 
Court's role in investigating alleged abuses since the November 
elections. We remain concerned about abuses allegedly committed by 
Ouattara's Republican Forces since the November elections, and will 
press for full accountability for all human rights violators.
    Accountability and a meaningful reconciliation process will be 
essential not only for Cote d'Ivoire's future, but for regional 
stability in the wake of the Ivoirian crisis. With some 200,000 
Ivoirian refugees in Liberia and other neighboring countries, President 
Ouattara must create a stable and peaceful environment to allow them to 
return. Restoring law and order to parts of the country where it has 
been absent for years will be central to this effort, and will not be 
easily achieved. Rebuilding trust between the Ivoirian people and the 
security sector--both military and police--will be challenging, 
particularly in the western regions where lawlessness and insecurity 
were commonplace even before the political crisis.
    Security sector reform is critical for Cote d'Ivoire's long-term 
stability, and the success of other programs in the short term. 
Reestablishment of U.N. programs for disarmament, demobilization, and 
reintegration of militia on both sides of the conflict will be an 
important factor in stabilizing the more volatile regions. The U.N. is 
completing a technical assessment mission to Cote d'Ivoire, which will 
provide recommendations to the U.N. and U.N. Security Council on how to 
best adjust UNOCI mission priorities to contribute to critical post-
conflict tasks. Restoration of state authority and law and order 
throughout the country presents a very immediate challenge for the 
Ouattara government, and support from the U.N. and international 
community will be critical. Broad security sector reform, including 
reform of the military, police and gendarmeries, and 
professionalization writ large, will require intensive international 
community coordination and support. As President Ouattara outlines his 
vision for the security sector organization and structure, we will work 
with our partners in the international community to coordinate 
assistance efforts in line with that vision.
    Given Cote d'Ivoire's regional importance and the negative impact 
of its instability on neighboring countries, there is a role for 
regional actors and institutions to play in helping Cote d'Ivoire 
achieve lasting stability and peace. The Ivoirian political crisis 
demonstrated the important role that regional organizations such as the 
Economic Community of West African States (ECOWAS) and the African 
Union can play in building international consensus on difficult issues. 
These organizations must remain actively engaged in helping Cote 
d'Ivoire avoid a return to instability. ECOWAS has already pledged 
humanitarian assistance for Cote d'Ivoire, and the African Union has 
promised to remain engaged in coordination with the international 
community to promote peace and genuine national reconciliation among 
Ivoirians.
    Currently, U.S. assistance to Cote d'Ivoire is limited to 
humanitarian programs including disaster relief and the President's 
Emergency Plan for AIDS Relief; many other programs are currently 
subject to foreign assistance restrictions that were triggered well 
before President Ouattara took office. We are exploring the process for 
lifting or waiving those restrictions, as appropriate, in order to 
broaden the types of assistance we can provide, and will consult with 
Congress in that effort. As we move through the process of addressing 
those foreign assistance restrictions, we have already begun careful 
coordination with our international partners to ensure that our efforts 
in supporting political reconciliation, economic recovery, and security 
sector reform are not duplicative.
    We remain committed to working with President Ouattara and the 
Ivoirian people to help reestablish Cote d'Ivoire as the beacon of 
stability and economic prosperity it once was. A prosperous and 
peaceful Cote d'Ivoire is an asset to the region and the continent, and 
we look forward to playing a part in the hopeful future that lies 
ahead.
    Thank you for the opportunity to speak today, and I welcome any 
questions you may have.

    Senator Coons. Thank you, Secretary Fitzgerald.
    Ms. Lindborg.

 STATEMENT OF HON. NANCY E. LINDBORG, ASSISTANT ADMINISTRATOR, 
 BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, 
  UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT (USAID), 
                         WASHINGTON, DC

    Ms. Lindborg. Good afternoon, Chairman Coons, Ranking 
Member Isakson, Senator Inhofe. Thank you for convening this 
hearing. And I welcome the opportunity to talk about the 
humanitarian assistance that we've provided to date in Cote 
d'Ivoire, and a brief look at the situation ahead. You have my 
full testimony, so let me just make a few reflections.
    As Mr. Fitzgerald has just indicated, Cote d'Ivoire has 
been--after having been one of the most prosperous nations in 
West Africa, has been the victim of a decade of political 
instability, and it's taken a heavy toll on both the population 
and the economy.
    Since the November 2010 elections, there's been a spiral of 
violence, and both sides have committed brutalities and 
killings. The result has been nearly half a million Ivoirians 
have fled their homes, including 180,000 who have fled into 
Liberia.
    Despite the arrest of former President Gbagbo on April 11, 
the simmering and underlying conflicts remain: unresolved land 
tenure conflicts, longstanding tension over ethnicity, 
religion, national identity, and fear of potential retaliation 
by forces loyal to both sides. All of this contributes to 
continued insecurity in Cote d'Ivoire. And our reports from the 
field indicate that there has been widespread destruction and 
displacement, particularly in western Cote d'Ivoire, where the 
fighting was particularly intensive over these last few months. 
Whole villages have been burned and destroyed, and many stand 
virtually empty.
    In some villages, the destruction appears particularly 
targeted, perhaps based on increased ethnic and political 
tensions that were intensified since the elections. We've seen 
many hospitals that have been looted, and essential services 
are not provided.
    Many of the displaced are staying with host families 
instead of in camps. In Liberia, up to 90 to 95 percent of the 
refugees are staying with host families in, really, a 
remarkable spirit of generosity. And this is straining the 
resources of many of the host communities. U.S. Agency for 
International Development representatives met with one 
household in western Cote d'Ivoire that was hosting three 
families in one household, for a total of 51 people. This is 
potentially straining the resources of an already very poor 
population, on both sides of the border, in Cote d'Ivoire and 
Liberia.
    We know that people have been traumatized by the violence 
they've just witnessed and by the repeated losses, frankly, 
over the last decade, and a population that already had many 
displaced. We don't know, as a result, when they will return. 
What we are told by those we speak to is that a return to 
security is paramount. Many of the refugees and host families 
in Liberia are already asking for seeds and tools for this May-
to-October planting season, indicating to us that they don't 
plan to return anytime soon.
    Since the crisis began, we've intensified our efforts, 
through the State Department and the U.S. Agency for 
International Development, to provide life-saving assistance to 
those who are affected by the conflict, both in Cote d'Ivoire 
and in neighboring Liberia. And our immediate priorities were 
to ensure that the conflict-affected populations had access to 
food, to water, and to adequate health care. We focus the 
majority of our assistance in western Cote d'Ivoire, in 
Abidjan, and across the border in Liberia.
    Through our office of Food for Peace, we provided $16.4 
million of emergency food assistance that went primarily 
through the World Food Programme. And we provided that 
assistance both to those who were displaced and to the host 
families whose resources were being stretched. This provided 
aid to 80,000 internally displaced persons and 100,000 refugees 
in Liberia. Through the USAID Office of U.S. Foreign Disaster 
Assistance, we provided $5.4 million in programs that provided 
water, sanitation, hygiene, working with communities to provide 
protection programs. Many of these people left their homes with 
virtually nothing. This is in addition to the $21.1 million 
provided by the State Department's Bureau of Population, 
Refugee, and Migration that particularly focused on the refugee 
population in Liberia.
    We've responded generously to this crisis. We also know 
that our emergency assistance will not contribute to durable 
solutions unless we continue to work with the international 
community to address the larger underlying issues. Within 
USAID, the Bureau for Democracy, Conflict, and Humanitarian 
Assistance has capabilities and surge teams that enable us both 
to provide humanitarian assistance, as well as to work with our 
colleagues at the State Department to move into a more 
effective transition. We're currently in discussions, with the 
State Department and the Embassy, on how we can best respond to 
the needs for additional assistance and move into a post-
conflict era. We're developing a menu of response options that 
look at a range of programs tailored to meet the specific 
transition needs of Cote d'Ivoire and the post-conflict 
requirements, building on what we've already done. We're ready 
to deploy additional experts to do the assessment that's so 
critical to identify what will be important to do next. And as 
Cote d'Ivoire looks to its future, we know that they need to 
address improved security, to rebuild its economy, and to 
rebuild the confidence of its people in its government through 
the reconciliation so critical to the future. We'll continue to 
work alongside the international community to provide the 
assistance and the support so critically needed for this very 
important country.
    Thank you.
    [The prepared statement of Ms. Lindborg follows:]

                Prepared Statement of Nancy E. Lindborg

    Mr. Chairman, Ranking Member Isakson, and members of the committee, 
thank you for this opportunity to testify before you today on Cote 
d'Ivoire. I will give you a brief update on the current situation in 
Cote d'Ivoire, the U.S. Agency for International Development's (USAID) 
efforts in the aftermath of post-election violence, and what 
capabilities we have that might be brought to bear in the future.
    Cote d'Ivoire was once one of the most prosperous states in West 
Africa, but political instability in the past decade has taken a heavy 
toll on the population and the economy. In late November 2010, the 
country held the second round of the long-awaited Presidential 
elections, which pitted incumbent President Laurent Gbagbo against 
former Prime Minister Alassane Dramane Ouattara in a runoff.
    The Independent Electoral Commission (CEI) declared Ouattara the 
winner, with 54 percent of votes cast in his favor, and the U.N. 
Operation in Cote'Ivoire certified these results. The Ivoirian 
Constitutional Court, however, in a highly questionable move, annulled 
votes from several pro-Ouattara regions, and overturned the CEI's 
ruling by declaring Gbagbo the winner with 51 percent of valid votes. 
Despite international community recognition that Ouattara was the duly 
elected President of Cote d'Ivoire, Gbagbo refused to step aside 
peacefully.
    Following the disputed Presidential election, increasingly intense 
fighting between forces loyal to the two sides caused at least 500,000 
people to flee their homes, including some 180,000 who fled to 
neighboring Liberia. The number of deaths reported varies, but has been 
reported in the thousands. Brutal massacres and killings along ethnic 
and political lines appear to have been committed by both sides of the 
political divide. The number of deaths reported varies, but has been 
reported in the thousands. Brutal massacres and killings along ethnic 
and political lines appear to have been committed by both sides of the 
political divide.
    Despite former President Gbagbo's arrest on April 11, unresolved 
land tenure conflicts, longstanding tensions over ethnicity and 
national identity, and fear of potential retaliation by forces loyal to 
either former President Gbagbo or President Ouattara all contribute to 
an uncertain security situation in Cote d'Ivoire.
                     current humanitarian situation
    Our reports from the field indicate that destruction and 
displacement are widespread. In western Cote d'Ivoire, whole villages 
have been burned, destroyed, and stand virtually empty. In some 
villages, the destruction appears more targeted, which is likely based 
on the ethnic and political tensions that have intensified since 2002. 
Hospitals have been looted and essential services are nonexistent.
    To help describe the magnitude of the displacement, let me provide 
an illustrative example. The International Committee of the Red Cross 
(ICRC) reports that there is severe destruction in Cote d'Ivoire near 
the border with Liberia between Zouan Hounien--where the fighting 
began--to Toulepleu to Blolequin. Before the recent violence, the town 
of Toulepleu had a population between 40,000 to 50,000 people. ICRC 
reported in March that only about 3,000 people remained while the rest 
fled.
    Security in Cote d'Ivoire is gradually improving, allowing greater 
humanitarian access to affected areas. That said, armed combatants 
continue to cause random insecurity. Earlier this month, insecurity 
forced health officials to delay a polio vaccine campaign in Bas 
Sassandra, a southern region where at least three people have recently 
contracted polio.
    According to Human Rights Watch, sexual violence has been 
increasingly prevalent in Cote d'Ivoire over the past decade, and the 
United Nations reports that gender-based violence, especially rape, has 
increased in most areas since the recent conflict began. All who have 
lived through the conflict have witnessed horrific events, further 
deteriorating trust levels between ethnic groups and political rivals.
    In western Cote d'Ivoire and eastern Liberia, there are 
simultaneous displacements and returns, which are inhibiting efforts to 
determine the actual number of refugees and returnees. Fear of possible 
reprisal attacks and interethnic violence, coupled with ongoing 
insecurity, continue to prompt Ivoirians to flee into Liberia. Grand 
Gedeh and Maryland counties, along the border with Cote d'Ivoire, are 
receiving as many as 250 refugees per day. Most who fled their homes 
left with nothing but the clothes on their back, and they are in need 
of food, basic household and hygiene items, and health care.
    Most of the displaced, whether in Cote d'Ivoire or in Liberia, are 
not located in camps but are instead residing with host families. 
Between 90 and 95 percent of the refugees are staying with Liberian 
host families, depleting already scarce resources in host villages. 
Many host families are sheltering more than one displaced family, 
further stretching already scarce resources such as food and health 
supplies. USAID met with one household in far western Cote d'Ivoire 
that was hosting three families, for a total of 51 people in the 
household.
    While refugees have been welcomed into Liberian homes and villages, 
the situation must be closely monitored to assure that basic needs of 
refugees and host families are met so tensions do not rise. There are 
also reports of Liberian mercenaries and Ivoirian militias crossing the 
border into Liberia, which further heightens security concerns. The 
onset of the rainy season has prompted concerns that the poor condition 
of roads and bridges in southeastern Liberia will hamper food 
distributions in the coming months, further exacerbating the situation.
    In this current crisis, refugees and IDPs cite security as a major 
factor in deciding whether to return to areas of origin in Cote 
d'Ivoire. Nearly all refugees and some host families in Liberia 
continue to request seeds and tools for the current May to October 
farming season, suggesting that refugees plan to remain in the country 
for at least 6 months. Traumatized by the violence they have witnessed 
and the repeated losses during the current and previous conflicts, many 
of the displaced told USAID that they are waiting to see security 
restored before they return home.
    After the 2002 civil war in Cote d'Ivoire, upward of a million 
people were displaced. Insecurity, coupled with longstanding political 
and ethnic divides, hindered timely returns. By mid-2010, the United 
Nations High Commissioner for Refugees (UNHCR) estimated that some 
519,000 Ivoirians remained internally displaced. That figure only 
accounts for people in the west and not from other areas of 
displacement so the number of Ivoirians who were displaced when this 
current crisis began is likely greater than 519,000.
    The needs are great, and the United States Government continues to 
find ways to provide assistance that is mindful of the fragile 
situation.
                    current humanitarian assistance
    Since the recent crisis began, the United States--primarily through 
USAID and the Department of State--has been working to provide life-
saving humanitarian assistance to those affected by the conflict in 
Cote d'Ivoire, whether they remained in country, fled into Liberia, or 
are serving as a host family for those who fled.
    The immediate priorities for our humanitarian assistance are to 
assure that conflict-affected populations have access to food and 
adequate health care. We are also working to provide access to clean 
water and appropriate sanitation and hygiene, as well as assuring that 
vulnerable populations are adequately protected.
    Based on our recent assessments, USAID will focus the majority of 
our humanitarian assistance in Cote d'Ivoire in the west, where 
widespread destruction and the general lack of law and order and social 
cohesion will pose significant challenges to recovery. As a complement 
to the work of the U.S. Department of State's Bureau for Population, 
Refugees and Migration (State/PRM), USAID will continue to provide 
support to the refugees as well as host families in Liberia.
    As you know, USAID does not have a Mission in Cote d'Ivoire. Our 
development assistance is managed primarily by the USAID West Africa 
Regional Mission in Accra, Ghana. USAID does maintain one staff member 
in Abidjan to oversee the daily management of the HIV/AIDS program as 
part of the larger President's Emergency Plan for AIDS Relief (PEPFAR). 
That individual, like many of his Embassy colleagues, is on Ordered 
Departure. In the face of the current situation in Cote d'Ivoire, 
PEPFAR partners have led heroic efforts to keep life-saving programs 
running by prioritizing programs that provide essential services such 
as antiretroviral drug distribution, HIV/AIDS treatment services for 
existing patients, and prevention of mother-to-child transmission 
programs.
    USAID's Office of Food for Peace is currently providing 
approximately $16.4 million of emergency food assistance through the 
U.N. World Food Programme (WFP) to meet the needs of vulnerable groups 
inside Cote d'Ivoire and in Liberia. In Cote d'Ivoire, USAID is 
supporting WFP's ``Emergency Assistance to Displaced Populations in 
Response to the Political Crisis in Cote d'Ivoire'' program which is 
designed to address the food needs of displaced persons and people in 
host families in the western, center, northern, and Abidjan regions.
    In Liberia, USAID is supporting WFP's ``Emergency Assistance to 
Ivoirian Refugees and Host Populations in North-Central and South-
Eastern Liberia.'' This program is designed to address the food needs 
of approximately 186,000 Ivoirian refugees and Liberian host community 
members in affected areas of Liberia. To date, WFP has provided life-
saving support to over 80,000 IDPs and host community members in Cote 
d'Ivoire and to over 100,000 Ivoirian refugees and host community 
members in Liberia.
    USAID's Office of U.S. Foreign Disaster Assistance has provided 
more than $5.4 million in emergency humanitarian programs that provide 
better health care, increase food security, promote economic recovery, 
protect vulnerable populations, provide clean water, and improve 
hygiene and sanitation.
    For example, one program in Cote d'Ivoire provides clean water, 
access to sanitation and hygiene education at IDP camps, as well as 
providing household water treatment, hygiene kits and sanitation 
promotion for 50,000 host families. In Liberia, USAID is providing 
medical supplies and medical staff to clinics that have been 
overstretched by the large refugee populations.
    To help survivors of sexual- and gender-based violence, USAID 
provides psychosocial support and access to health care. We have also 
worked with communities to encourage them to identify risks to their 
community members, discuss the causes and consequences, and seek ways 
in which they can work to prevent harm, abuse, and exploitation.
    In addition to the $21.8 million in USAID support, State/PRM has 
provided $21.1 million to assist conflict-affected populations. In Cote 
d'Ivoire, PRM is supporting the United Nations High Commissioner for 
Refugees (UNHCR) to provide camp coordination and protection programs 
for IDPs. PRM is also supporting the International Committee of the Red 
Cross, working to protect and assist victims of conflict, and the 
International Organization for Migration (IOM) which has provided 
emergency transport for people at risk. In Liberia and other 
neighboring states, PRM is helping UNHCR and partner agencies respond 
to the basic assistance and protection needs of Ivoirian refugees, 
including the provision of livelihoods support, medical care, clean 
water and sanitation, and family reunification.
    The United States has responded generously to this crisis, but we 
know that our emergency assistance will not be durable unless the much 
larger underlying issues are addressed. The future course of the 
political transition is now in the hands of the Ivoirians. President 
Ouattara faces significant and multiple challenges, particularly in 
reaching across the political divide and giving all Ivoirians 
confidence in the new government.
            looking beyond emergency humanitarian assistance
    USAID is currently in discussions with the U.S. Embassy in Abidjan 
about how we can best respond to the needs for additional humanitarian 
assistance as well as support post-conflict transition programs. We 
have developed a menu of response options in line with the State 
Department's strategic framework. USAID is prepared to support a range 
of programming options that are tailored to address the specific 
transition and post-conflict requirements in Cote d'Ivoire, building 
upon the foundations provided by our humanitarian assistance 
activities.
    USAID stands ready to deploy experts for an in-country assessment 
of transitional needs including overall democracy and governance 
opportunities and challenges, as well as political reconciliation, 
transitional justice, and security sector reform.
    USAID assistance could also provide skills-building and training to 
help enable all key stakeholders--from ordinary citizens, to the media 
and civil society, to the highest echelons of executive government--to 
support and demand peaceful political transitions as a matter of status 
quo for the upcoming legislative elections and reform measures. Working 
together, USAID's humanitarian and development experts can design 
highly effective programs based on assessment findings.
    Reconciliation is a daunting task in the wake of the recent 
violence and heated political discourse. The Ouattara government has 
pledged to establish a Truth and Reconciliation Commission, along with 
investigations of war crimes committed by both sides since the November 
election. Unless societal divisions and grievances are addressed, 
political divisions are reconciled, and perpetrators of violence are 
held accountable to their communities, our efforts will be ineffective. 
Ivoirians will need to build or restore mechanisms for peace and 
justice at both the national and community levels. USAID brings 
capabilities to analyze the dynamics of latent conflict, grievance, and 
social resilience to tailor assistance appropriately to the present 
context and political climate.
    Cote d'Ivoire is the world's largest producer and exporter of cocoa 
beans and a significant producer/exporter of palm oil, coffee, and 
cashew nuts. Political instability since the end of the civil war in 
2003 has continued to damage the economy, resulting in the loss of 
foreign investment and slowing economic growth. As Cote d'Ivoire gains 
stability, the revitalization of the economy and markets systems will 
be necessary to improve the long-term prospects for all Ivoirians.
    Though the United States has the capabilities to help meet priority 
needs in Cote d'Ivoire, we cannot do it alone. We will continue to work 
alongside the international community to assure that gaps are filled 
and needs are met as quickly and efficiently as possible. And when 
possible, we will seek opportunities to engage the private sector, 
which can bring to bear new resources, ideas, and technologies that 
could be key components to the recovery in Cote d'Ivoire.
                               conclusion
    The hard work of governing a divided nation is just beginning for 
President Ouattara, and the humanitarian crisis is far from over. The 
United States stands by the Ivoirian people, and we appreciate the need 
to ensure our assistance is as long-lasting and sustainable as 
possible.
    Thank you, and I look forward to answering your questions.

    Senator Coons. Thank you, Ms. Lindborg.
    Secretary Fitzgerald, if I might sort of begin our first 
round of questions with a question to each of you. The 
administration's called on President Ouattara to govern on 
behalf of all Ivoirians, including those who supported former 
President Gbagbo. What steps, in your view, can President 
Ouattara take to encourage reconciliation, greater unity among 
the Ivoirian people, to address this enormous tragedy? And what 
do you think will be the most successful support we can provide 
to the Dialogue, Truth, and Reconciliation Commission?
    Mr. Fitzgerald. Absolutely. Thank you, Mr. Chairman, for 
that question, because it's an important one, and one that we 
focus on every day since the crisis dropped down to a level 
where we can focus on what we're going to do in the future.
    Political reconciliation is absolutely essential. I think 
that all people who were involved in human rights abuses need 
to be brought to trial. There needs to be accountability. The 
people, after 10 years, have suffered long and hard, and 
they're tired of insecurity. They're tired of fighting.
    I think that President Ouattara has already indicated that 
he will take steps to include members of former President 
Gbagbo's party in his Cabinet. And I think that's an important 
step; perhaps two or three ministers. I think that it's 
essential, for instance, to reach out to the people. He 
delivered an Easter address. And again, Mr. Ouattara is from 
the north. And again, he's trying to show that, in fact, the 
religious divide, which traditionally has not been deep in Cote 
d'Ivoire--in fact, it's a very diverse society; you have a lot 
of intermarriages--and I think he--first, accountability; 
second, I think he needs to move to legislative elections as 
quickly as possible so people in their home districts feel like 
they have some sort of representation.
    And I think, to be perfectly honest with you, he needs to 
stand up, along with the United Nations, a security force that 
guarantees the security and the protection of all people, which 
is, of course, the mandate that UNOCI has been carrying out, 
along with the French. This is particularly true in the west. I 
hate to say it--
I hate to bring bad news, but just yesterday--well, last week, 
the last of the fighting, in Abidjan ended in the Upegon 
Cartier, which is pro-Gbagbo--typically pro-Gbagbo. They were 
routed, the folks, in the mopping-up exercise, and they fled. 
And there were also approximately 50 to 100 Liberian 
mercenaries who were fighting for former President Gbagbo.
    On their way west, as they headed toward Liberia, they 
attacked at least three villages and killed 170 people.
    Senator Coons. The committee will be in order.
    Mr. Fitzgerald. And this is----
    Senator Coons. Please continue.
    Mr. Fitzgerald. This is--information that----
    Senator Coons. Please maintain order.
    Mr. Fitzgerald [continuing]. Has been published by well-
known NGOs, as well as well-known newspapers and wire services 
and magazines. A hundred and seventy people are dead. The 
Commission of Inquiry is going to investigate that, as well. 
Security is key to political reconciliation.
    Thank you.
    Senator Coons. Thank you, Mr. Secretary. I mean, obviously, 
the passions of the people of Cote d'Ivoire, in response to 
many acts of violence and many humanitarian abuses, are going 
to be a very real challenge for reconciliation.
    Ms. Lindborg, I understand that extraordinary efforts were 
taken by USAID partners to continue to deliver life-saving 
drugs and treatments during this crisis, through the PEPFAR 
Program. Could you describe some of that in more detail, and 
then contrast them with some of the difficulties you've had in 
the western part of the country in continuing to deliver polio 
vaccines? And I'd just be interested in what I understand are 
some extraordinary efforts by USAID during this crisis.
    Ms. Lindborg. Thank you. I really want to highlight how 
dedicated so many of our partners are to ensuring that life-
saving programs continue even when security conditions really 
limit access. Many of the partners were able to ensure that 
programs continued, through working with community members, 
ensuring that food and supplies went forward when there were 
moments of security that enable transport to go forward.
    There does remain insecurity that still inhibits our 
ability to fully reach certain parts of the country. And, as 
Mr. Fitzgerald said, one of the critical requirements, going 
forward, is that security is returned to the country so that 
people are able to return to their lives to have restored 
confidence in a future, and also to ensure that we're able to 
get critical food supplies, medical supplies, and access to 
clean water to go forward.
    Senator Coons. Thank you, Ms. Lindborg.
    Mr. Fitzgerald. If I could add on to that, Mr. Chairman, 
the PEPFAR Program has been extremely successful in Cote 
d'Ivoire. And I think--I know I speak for Ms. Lindborg when I 
say that we're extraordinarily proud of it. It's carried out by 
indigenous nongovernmental organizations, as well as 
international nongovernmental organizations. Even before, years 
ago, it was really the lifeline between the north and the 
south. You know, the country has been split in two. Yet, the 
PEPFAR, these NGO's, have been able to serve both the north and 
the south. And an essential part of reconciliation is for 
President Ouattara to show that he's not favoring one region 
over the other, but is really trying to unify Cote d'Ivoire.
    Thank you.
    Senator Coons. Thank you, Mr. Secretary. Thank you, Ms. 
Lindborg.
    Senator Isakson.
    Senator Isakson. Mr. Chairman, out of concern for the 
length that we may go here, I might suggest that we have one 
round of questions for the first panel and one round for the 
second panel, so we can hear from the second panel, as well. I 
think we'll be talking about more of a way forward. Do you 
object to that?
    Senator Coons. No. There's no objection.
    Senator Isakson. Hearing no objection, I'll let you rule. 
[Laughter.]
    Mr. Fitzgerald, my experiences in Africa, particularly 
where there are places of conflict, such as Darfur and the 
Sudan, the African Union can play a critical role in ensuring 
some equitable handling of investigations of atrocities, 
crimes, et cetera. Your statement says, ``The African Union can 
play a critical role in building an international consensus on 
difficult issues.'' I wish the word ``can'' was the word 
``will.'' Do you think they will play?
    Mr. Fitzgerald. Yes, I think they will. And in fact, in the 
latter part of my testimony, I discuss that both ECOWAS, the 
West African organization, as well as the African Union, in 
fact, must play an important role.
    Now, I would thank you, Senator Isakson, for raising the 
discussion about the African Union, because the African Union 
was not as quick to recognize Alassane Ouattara's victory in 
the polls and, in fact, sent a factfinding team, led by 
President Aziz of Mauretania--but, most importantly, with 
President Zuma from South Africa. Now, South Africa had very 
serious doubts about the validity of this election, so 
President Zuma's participation was important.
    There were three other members: Blaise Compaore, from 
Burkina Faso; President Debi, from Chad; and President Choete, 
from Tanzania. And they traveled numerous times to Abidjan, met 
with all the people--they met with Ouattara; they met with 
Gbagbo; they met with the Independent Electoral Commission; 
they met with the Constitutional Council. President Zuma had 
said, before he made these trips, that there should be a 
recount or they should hold the elections over. He came away 
from that convinced, by the description by special 
representative of the Secretary General Choi, that, in fact, 
the election had been held properly, transparently, and fairly, 
and Alassane Ouattara won the election. The institutions 
worked. The institutions worked. And I think that's very 
important, because we had a doubter at the beginning, in 
President Zuma, who, at the end of the day, the African Union, 
in totality, accepted the victory of Alassane Ouattara.
    Thank you, Mr. Chairman.
    Senator Coons. Mr. Secretary, just suspend for a moment, if 
you would.
    If we can't maintain order in the course of this hearing, 
we will stand in recess and I will ask the Capitol Police to 
clear the room. So, please conduct yourselves in accordance 
with the rules of our Senate, which requires that we be able to 
hear our witnesses and conduct ourselves in accordance with the 
rules and decorum that's expected in this body.
    Senator Isakson. Thank you very much, Mr. Chairman.
    Mr. Fitzgerald, one other question for you. Charles Konan 
Banny--what is his history? Will he be able to lead a 
legitimate group of reconciliation?
    Mr. Fitzgerald. I think he will, Senator. Charles Konan 
Banny was a Prime Minister, under President Gbagbo. He is a 
member of former President Bedie's political party. We're not 
thrilled that he's a member of a political party, yet it's a 
political party that participated, but lost, in the election in 
the first round. The important thing, I think, is the fact that 
there will be participation by a Muslim and a Christian cleric.
    And I want to point out something. One of the first things 
that Alassane Ouattara did to begin this process is, he called 
on Desmond Tutu, famous for his Truth and Reconciliation 
Commission in South Africa, to come up and meet with him and 
discuss how to go about setting up a good Truth and 
Reconciliation Commission that will enable the country to 
identify those who've committed atrocities, to convict and 
prosecute those who've committed atrocities, to allow people to 
vent. Ten years is a long time in a state of insecurity. And I 
think it was absolutely critical.
    I would also--if I can answer one of Senator Inhofe's 
earlier questions, we do know where Laurent Gbagbo and Simone 
Gbagbo are. They're in the northern parts of the country, in 
separate places. Mr. Gbagbo received a group of the elders, 
including Desmond Tutu, very recently--Desmond Tutu, Mary 
Robinson, the former President of Ireland, and former Secretary 
General Kofi Annan. So, I think it's fair to say that his 
treatment is--he's in good condition, and that his treatment is 
fair, and they are gathering evidence for either a local trial 
or it will be in the ICC.
    Thank you.
    Senator Isakson. Thank you.
    Ms. Lindborg. I did some quick math in my head, which is 
always a very dangerous thing for me to do. But, on your map, 
as of May 5, it looks like, to me, there are about 450,000 
either individually displaced persons or refugees now, after 
this conflict. Is that right?
    Ms. Lindborg. A little bit more. Just a little more than 
that, yes.
    Senator Isakson. Well, my math was close, then. [Laughter.]
    One of the big problems on the continent of Africa are 
refugees, and in bordering countries. We have the problem with 
Kenya having the Somalis. We have the problem of Darfur, 
between Chad and the Sudan. And from what your testimony said, 
they're planning on staying for a while--I thought I heard you 
say that--the refugees. Is that correct?
    Ms. Lindborg. We're hearing, as of right now, from the 
surveys that we've done of the refugee population--and, you 
know, these are fluid numbers, because people move frequently. 
But, that, among many of those who are in Liberia, they don't 
currently have intentions of returning. And clearly, we're 
concerned that that not create undue burdens on the populations 
on the Liberia side.
    Senator Isakson. Are the individually displaced persons in 
camps within Cote d'Ivoire?
    Ms. Lindborg. In Cote d'Ivoire, they're both in camps. But, 
the majority, really on both sides of the border, are with host 
communities.
    Senator Isakson. Well, that was the comment I wanted--
I thought I heard your comment say that. Based on my 
experience, that is a good sign for the way forward, because 
when these camps develop, they end up becoming enclaves in 
perpetuity. But, if they are housed with other people, there's 
a good chance, if the stability comes to Cote d'Ivoire, they 
can come back. Am I correct?
    Ms. Lindborg. You are exactly right. And camps always have 
the possibility of creating new sets of problems. And for that 
reason, we're being very careful to ensure that the host 
families receive assistance, as well, so they don't have their 
very scarce resources unduly strained by providing that 
hospitality to the refugees and the displaced.
    Senator Isakson. Thanks, to both of you, for your 
testimony.
    Senator Coons. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. Let me ask, first 
of all, if the two witnesses--are you--will you stay through 
the next line of--the next panel? Would both of you agree to do 
that?
    Senator Coons. Senator, our practice is to do one round, 
one panel----
    Senator Inhofe. I understand that.
    Senator Coons [continuing]. And then another round.
    Senator Inhofe. I understand that. But, if they will stay, 
I want to respond to one of his questions. Secretary Fitzgerald 
talked about how good a treatment President Gbagbo is getting--
and that's not true. And I want to show you it's not true. But, 
if you leave before I get a chance to show the other panel, 
I'll be quite upset.
    You'll be happy to stay. That's----
    Mr. Fitzgerald. I'd be happy to stay for as long as you'd 
like, sir.
    Senator Inhofe. All right. Let me ask you each a question. 
How many times have you been in Abidjan, Mr. Fitzgerald?
    Mr. Fitzgerald. Three times, sir.
    Senator Inhofe. How many times have you been, Ms. Lindborg?
    Ms. Lindborg. I have not.
    Senator Inhofe. OK. First of all--let me just ask you two 
questions, Secretary Fitzgerald--first of all, you heard what I 
said about the election----
    Mr. Fitzgerald. Yes, sir.
    Senator Inhofe [continuing]. In terms of the fact that we 
showed that 94,000, in just one region, was taken out, was 
intentionally miscalculated. That's an official record. They 
said that it's a fraudulent document. Now, I sent you a letter 
and told you to check that out. Tell me why it's fraudulent.
    Mr. Fitzgerald. Sir, I can't say whether it's fraudulent or 
not. We based our----
    Senator Inhofe. OK, that's fine.
    Mr. Fitzgerald. We based our decision on accepting the 
results of the election because of the certification process by 
Secretary----
    Senator Inhofe. That----
    Mr. Fitzgerald [continuing]. General Choi.
    Senator Inhofe [continuing]. Isn't the question. That isn't 
the question. They said it----
    Mr. Fitzgerald. Sorry?
    Senator Inhofe [continuing]. Was fraudulent, and we tried 
to get the----
    Mr. Fitzgerald. No, I----
    Senator Inhofe [continuing]. State Department to say why it 
was fraudulent.
    Mr. Fitzgerald. Excuse me, Senator.
    Senator Inhofe. You're representing the State Department, 
and I'm asking you, Do you have any evidence that it's 
fraudulent? Just yes or no is fine, because I don't want to----
    Mr. Fitzgerald. Senator, I can't say whether it's 
fraudulent or not.
    Senator Inhofe. OK. Several--put up that one picture there 
that shows--you talked about reconciliation and that Ouattara 
was going to be inviting some of the Cabinet and some of those 
individuals from Gbagbo's administration to join in. Here's one 
right here, the top right picture. That happens to be the 
Secretary of--Interior, is it?--Minister of Interior. They shot 
him, first, in the face. They--this is the Ouattara forces. 
They left him to die a slow, painful death. Is this being 
inclusive of putting their people into the Ouattara----
    Mr. Fitzgerald. Senator, thank you. No, absolutely not. I 
share with you the same repulsion and revulsion toward any 
egregious human rights violations like that. However, it was a 
combat situation, I'm sure. It was conflict. It was wide open. 
It was very difficult.
    Senator Inhofe. No, this was after it was over.
    Mr. Fitzgerald. Sorry?
    Senator Inhofe. This was after it was over, Mr. Secretary.
    Mr. Fitzgerald. Excuse me? I thought you said, sir, that, 
in fact, the conflict is still going on.
    Senator Inhofe. No. I was saying that this occurred after 
the--after this conflict was over, in the area where they were 
gathering up their supporters. I have personally----
    Mr. Fitzgerald. Sir----
    Senator Inhofe [continuing]. I have--don't interrupt me--I 
have personally talked to friends of Gbagbo, people who are on 
the Cabinet, and others, whose names I wouldn't use, because 
they would be summarily executed, and you know that as well as 
I do.
    I want to ask Ms. Lindborg a question. We had three areas 
where very large numbers of people were killed, either by the 
Ouattara forces, such as in a town--put that one up first--of 
Deukoue. I would like to ask you, Do you have any idea of how 
many people were murdered in Deukoue? And this, I hasten to 
say, is after it was documented that the Gbagbo forces were 
gone. About how many people? Do you have any idea? I mean, it's 
been--it's been several weeks now. Do we have a number of how 
many people have been killed?
    Ms. Lindborg. My understanding is that they're still 
determining what are the exact numbers. And, as Mr. Fitzgerald 
indicated, holding people accountable will be a critical part 
of the healing process.
    Senator Inhofe. Well, the----
    Ms. Lindborg. And so, we're looking----
    Senator Inhofe [continuing]. Healing process is--the first 
thing you want to do is see how many of these people--well, 
let's just skip, now, from there to the U.N. and the French 
bombing in Abidjan.
    Which one--do you have one of those--we have several on 
that.
    Yes, this area, here, as I said--and I know that you say 
you haven't been there, and Secretary Fitzgerald has been there 
three times. I've been there 15 times. And I've been over every 
square inch of this area down there. I've walked through and 
seen, and even commented, Why could you--why would they have 
all these people moving into this area? If it ever blew up, 
there'd be hundreds, maybe thousands, of people that would go 
with it. There they are, right there. Do you have an accounting 
of how many people were killed during that bombing? And this 
was one that was--the French and the United Nations--we have 
the pictures of the helicopters. Do you have any--do you have a 
round figure, within 50,000 people, who--how many have been 
killed in that particular incident?
    I'm asking you, yes.
    Ms. Lindborg. I don't have an exact accounting. And we--as 
I just mentioned, I understand that they're still looking at--
--
    Senator Inhofe. OK.
    Ms. Lindborg [continuing]. Determining that. And, you know, 
the really critical piece of looking forward, for a country 
that's been gripped in conflict for the last decade, is 
determining how, through the various mechanisms--the Dialogue, 
Truth, and Reconciliation Commission, the ICC, the Commission 
of Inquiry----
    Senator Inhofe. That----
    Ms. Lindborg [continuing]. How these mechanisms----
    Senator Inhofe. That's fine.
    Ms. Lindborg [continuing]. Can enable us.
    Senator Inhofe. I don't want to be rude, Ms. Lindborg, and 
you're a very nice person, but let's just don't get into a 
different subject. I'm talking about what happened. Get the 
third group. I'm going to ask the question--simple yes or no--
--
    Put up the one of the--all the kids.
    These are the human shields that were surrounding the 
palace. The kids didn't have any armaments, other than some 
wood sticks and baseball bats. There they are. All four 
pictures are there. The question I would ask you, Do you have 
an accounting--this should be a lot easier--accounting of how 
many of these kids were killed?
    Ms. Lindborg. Senator, we completely share your concern and 
your sense of outrage at what may have happened. And the--for 
us, the focus was on providing humanitarian assistance as 
quickly and as effectively as we could----
    Senator Inhofe. Let me ask both of----
    Ms. Lindborg [continuing]. And going forward----
    Senator Inhofe. My time is about to expire. Let me just--I 
know the assistance. You spent your opening remarks talking 
about assistance. That's not the subject right here, at least 
with me. Would the two of you--when you--we are concerned. I 
think everyone in here should be concerned about 
reconciliation. Would you be willing, when you stop--I mean, 
consider the alternatives. One would be to turn them over to 
the International Court, which means it's over, they're gone 
forever. Then you're going to have--you know what's going to 
happen: they'll be martyrs, and all kinds of things can happen. 
You've weighed these things. I think everyone in this room has.
    One of the most logical things, I would think, would be to 
allow them to go into exile. Would the two of you agree that 
that would be a act of reconciliation that is worth pursuing?
    Mr. Fitzgerald. I think there was a time for that, sir. Now 
is not the time. They've been captured. They're drawing up 
charges. The Commission of Inquiry is investigating. The ICC 
apparently is poised to send a team down. If they are found 
guilty of crimes, they need to serve the time. That is the 
accountability that we were looking for, sir.
    Senator Inhofe. Well, that's what I thought you would say. 
And, by the way, I have to add that this offer was made long 
before--when you say ``this wasn't the time''--this offer was 
made when the time is there. And I know I'm out of time on this 
panel, but I would only say that I believe in my heart, and 
after going there, that this would be the best solution. There 
have been offers from all around. And, Mr. Fitzgerald, when you 
talked about the African Union, you heard the quote that I had, 
that I gave, on President Obiang. You talked about the South 
African President Mbeki and his comment. I think the one thing 
that most of the Presidents that I have talked to--all of them 
I've personally talked to, and that's quite a few of them, 
because I know most of them have all concluded one thing, and 
that is the way this was done--the outsiders coming in, the 
French coming in, the United Nations coming in and making this 
happen--was something that is very, very offensive, something 
that reverts back to the old colonial days, and they find it 
very offensive.
    Thank you, Mr. Chairman.
    Senator Coons. Senator.
    Ms. Lindborg, Secretary Fitzgerald, thank you so much for 
coming today, for your testimony, both prepared and delivered 
in response to questions. As is evident, this is a panel of 
Senators concerned about, and deeply interested in, the path 
forward for Cote d'Ivoire, which faces enormous challenges, in 
terms of reconciliation and being able to make progress. And 
I'm grateful for your determined work on behalf of the people 
of the United States, to represent us well in that challenge, 
going forward. So, thank you for appearing before us today.
    I'm going to invite our second panel to come forward, if I 
might. Our next panel includes the three members: Dr. Michael 
McGovern, of Yale; Ms. Jennifer Cooke, of the Center for 
Strategic and International Studies; and Dr. Gilpin, of the 
United States Institute of Peace.
    [Pause.]
    Senator Coons. Thank you for appearing before us today.
    Dr. McGovern, I invite you to begin.

     STATEMENT OF MICHAEL McGOVERN, ASSISTANT PROFESSOR OF 
   ANTHROPOLOGY AND DIRECTOR OF GRADUATE STUDIES OF AFRICAN 
            STUDIES, YALE UNIVERSITY, NEW HAVEN, CT

    Dr. McGovern. Mr. Chairman, I want to thank you and your 
colleagues for the invitation to join you today in a hearing on 
reconstruction and reconciliation in Cote d'Ivoire.
    The situation in Cote d'Ivoire has been worrying for over a 
decade. We've heard the phrase ``a decade'' over and over. But, 
I would actually date it back two or even three decades. 
Xenophobic policies have been promoted. A virulent and 
inflammatory press has added to the problems. And security 
forces have become more of a praetorian guard than a law-
abiding neutral force that should protect the country and its 
citizens.
    Having identified these worrying factors, I'd also like to 
make a comparison. All these dynamics that I've just described, 
from arguments about citizenship rights to land disputes to the 
deleterious effects of polarized and irresponsible press, are 
considered to be among the causes of the Rwandan genocide. 
However, in Rwanda, in 3 months, nearly a million people were 
killed, while, in Cote d'Ivoire, over the 12 years of the 
conflict, the number of people killed directly in this conflict 
is probably a little bit on one side or the other of 10,000 
people, several orders of magnitude smaller than what happened 
in Rwanda. To me, this suggests that Ivoirian society has 
significant resiliency and capacity to manage its conflicts 
internally. These capacities are not easily visible--for 
instance, through the images that we've already seen; they 
can't be seen, easily, at first glance; and they have been 
placed under tremendous stress over the last months. But, I 
believe that the role of the United States Government, and its 
agencies, should be to find these areas of resiliency and 
strength, and to support them further.
    I'll limit the rest of my comments to outlining three 
points that are developed in my written remarks.
    First, in the area of social and political reconciliation, 
as we've heard, President Ouattara has already established a 
Commission on Dialogue, Truth, and Reconciliation. From an 
anthropological perspective--that's my own discipline--I would 
say that the deeper psychological and sociological processes of 
reconciliation will probably not be accomplished by this 
Commission. And it may be unhelpful to expect that they could 
be. That work is going to have to take place at very local 
levels in ways that may well be different from village to 
village and from block to block within cities like Abidjan.
    I'm somewhat skeptical of the idea that reconciliation can 
be engineered from above, whether at the national level or 
internationally. But, what makes politics and ordinary life in 
Cote d'Ivoire tick, I would say, is money. And the greatest 
possible boon to Ivoirian reconciliation, I would like to 
suggest, would be the creation of jobs. And, in that spirit, 
I'd like to urge this committee to insist that American 
economic assistance to Cote d'Ivoire be very much oriented 
toward job creation, first and foremost--not economic growth, 
because oftentimes policies that do lead to measurable economic 
growth in Africa don't create that many jobs.
What Cote d'Ivoire really needs is jobs. I can come back to 
that in questions.
    My second point is that one of the challenges for creating 
jobs, and thus, social reconciliation, will be reinstating 
security. We've already heard this. And there are challenges 
and opportunities in the area of security sector reform. I'll 
just suggest that there should be systematic vetting of all of 
those people who are being incorporated into the new security 
forces and might have been accused of abuses or war crimes from 
every side--the former Forces Nouvelles, the former Forces de 
Securitee, and so forth.
    Noncriminal elements, once they've been integrated from all 
sides of the conflict, should be incorporated, with clear plans 
to gradually draw down the size of what will certainly be a 
bloated military over a period of 10 to 15 years, on the basis 
of meritocratic evaluation. In this way, the military can serve 
a useful function as a kind of social sponge that would soak up 
some percentage of the most volatile young men who've 
experienced making a living with guns; but, at the same time, 
by establishing clear criteria for evaluation, review, 
promotion, and, ultimately, retention, security sector reform 
could help to begin the process of reprofessionalizing a 
military that has become overly politicized, abusive, and 
characterized by extremely weak command-and-control discipline.
    Third and finally, there are several key measures that 
should be taken to promote the functioning of the Ouattara 
government and the long-term peace and stability in Cote 
d'Ivoire. I'll just mention two.
    One is that the legislative elections deserve U.S. 
Government support to ensure that they take place in a timely 
and credible manner. We've already heard that those who've lost 
out in the Presidential elections may find themselves winners, 
locally, when they elect their legislators. I don't need to 
convince you of the importance of balance of powers.
    The other is judicial reform, and I would really urge that, 
in Cote d'Ivoire, this ought to be oriented toward improved 
systems of economic governance and financial accountability. 
The cocoa and coffee sector has been the historical slush fund 
of the government. But, over the last decade, actually, it's 
the petroleum sector that has become the opaque focus of a lot 
of illicit and illegal economic activity.
    Thank you very much.
    [The prepared statement of Dr. McGovern follows:]

                 Prepared Statement of Michael McGovern

    Mr. Chairman, I want to thank you and your colleagues for the 
invitation to join you in today's hearing on ``The Reconstruction and 
Reconciliation Process in Cote d'Ivoire.'' My name is Mike McGovern, 
and I am an anthropology professor at Yale University. I was previously 
the West Africa Director of the International Crisis Group, where I 
conducted research in Cote d'Ivoire and neighboring countries. My book, 
``Making War in Cote d'Ivoire,'' deals with the conflict we are 
discussing.
    The situation in Cote d'Ivoire has been worrying for over a decade. 
Xenophobic policies promoted by three successive governments began by 
attempting to exclude rival candidates, and ended by fueling 
interethnic massacres. A virulent and inflammatory press has used 
innuendo, lies, and ethnonationalist rhetoric to incite violence. 
President Gbagbo worked hard to take what had been an ethnically 
representative army, and to stock it with members of the relatively 
small number of ethnic groups that supported him. The security forces 
consequently became more of a praetorian guard than a law-abiding 
neutral force to protect the country and its citizens. On top of this, 
both the Gbagbo government and the former rebels in the north (who are 
now aligned with President Ouattara) have relied heavily on militias 
and on mercenary fighters, most infamously from Liberia. All sides have 
abused civilians, and have regularly done so with impunity.
    All of these factors fed into a pattern of dramatic spikes in 
violence, followed by equally quick de-escalations. The fighting in 
March and April of this year was the most significant such outbreak 
since the 2002 coup attempt turned civil war. These dynamics pose 
serious challenges to the reconstruction of Cote d'Ivoire's social, 
economic, and political institutions, but I would also like to make a 
comparison. All of the dynamics I have described above--from arguments 
about citizenship rights, to land disputes, to the deleterious effects 
of a polarized and irresponsible press--are considered to be among the 
causes of the Rwandan genocide. Indeed, people on both sides of the 
Ivorian conflict have regularly signaled the possibility that Cote 
d'Ivoire could melt down into Rwandan-style genocidal violence. And 
yet, while every death in Cote d'Ivoire is undoubtedly a tragedy, those 
killed in this conflict over the past 12 years can be counted around 
8,000 to 10,000, not in the hundreds of thousands.
    Part of the credit for this goes to international actors including 
the U.N., West African body ECOWAS and even the United States, which 
have taken active steps to tamp down incipient violence. However, I 
think we must also credit Ivorian society with having significant 
capacity to manage conflict internally. These capacities are not easily 
visible at first glance, and they have been placed under tremendous 
stress in the last months. I believe the role of the U.S. Government 
and its agencies should be to find these areas of resiliency and 
strength, and to support them further.
    In the area of social and political reconciliation, President 
Ouattara has already established a Commission on Dialogue, Truth and 
Reconciliation. The Head of this commission, Charles Konan Banny, is 
respected and is a relatively neutral figure. He is trained as an 
economist, is a former West African Central Bank head and was the Prime 
Minister proposed as an honest broker by international actors during 
the middle years of the Ivorian conflict (2005-07). The commission 
probably has the greatest chance of success if the parameters of its 
operations are kept modest. It could gather the many different versions 
of the events of the last decade, and recounting these events may or 
may not bring some solace to certain witnesses. However, researchers 
who have looked closely at Truth and Reconciliation Commissions around 
the world have become increasingly skeptical of the therapeutic value 
of such recounting of past violence and injustices for those who do the 
telling. In some cultural contexts (and West Africa may be one), there 
is a relative discomfort with verbally rehashing the painful events of 
the past, and little sense that such recounting is cathartic. What 
people may prefer is rather a situation in which the conditions of 
possibility are set in place for people to act properly, operating 
according to an implicit dictum that ``actions speak louder than 
words.'' One invaluable service such a commission can render is to give 
an exhaustive accounting of who did what to whom and when. This will 
serve as an important historical starting point for Ivorians as they 
decide to address these events over the coming decades. Neutrality and 
the appearance of neutrality are key here, and the U.S. Government 
could play a role as a relatively uninvolved actor that has been 
invited by all sides in the conflict to become more involved in helping 
to resolve the conflict.
    The deeper psychological and sociological processes of 
reconciliation will probably not be accomplished by the Truth and 
Reconciliation Commission, and it may be unhelpful to expect that it 
could. That work will have to take place at very local levels in ways 
that may well be different from village to village, or from block to 
block within the cities. I am not sure that such processes can be 
orchestrated at the national level, let alone from outside the country. 
However, I believe there is one area of crucial importance in this 
process that should be accomplished in the context of a countrywide 
conversation about the events of the past decade. Many Ivorians have 
taken a certain moral distance from the events in their country, even 
while they may have played a role, however small, in the process of 
polarization, vituperation, and violence that has led to the country's 
slide into conflict.
    An excellent example of this is the way that many of the really 
gruesome massacres in the Ivorian conflict have systematically been 
blamed on Liberians, even while both sides in the conflict blame the 
other for having engaged the services of these ``barbaric'' mercenary 
fighters. What joins Ivorians who are otherwise opposed is their shared 
notion that no Ivorian could be capable of burning whole families alive 
in their houses, or of killing people with machetes. However, in many 
cases it has indeed been Ivorians who have undertaken this violence, 
Ivorian military who have benefited by shaking down civilians at 
roadblocks, Ivorian militias who have systematically raped their female 
compatriots, Ivorian villagers who have used the fog of war as an 
opportunity to murder those with whom they have contested ownership of 
land. There is a kind of playfulness surrounding the ``game'' of 
plausible deniability where everyone from leading politicians through 
the national press and down to ordinary people utilizes barely veiled 
code for xenophobic speech or uses the threat of violence to get what 
they want, and then claims they did not really mean what they said or 
did. This is a form of playing with fire that has gone too far in Cote 
d'Ivoire. Too many people have been burned by it, and Ivorians need to 
take stock of the fact that they bear primary responsibility for 
allowing this poisonous political culture to flourish in their country.
    Aside from this stocktaking, however, I am somewhat skeptical of 
the idea that reconciliation can be engineered from above. What makes 
politics and ordinary life in Cote d'Ivoire tick is money, and the 
greatest possible boon to Ivorian reconciliation would be the creation 
of new jobs. This will require reinstating security and stability, 
tamping down the criminality that has as often as not been perpetrated 
by actors claiming to work on behalf of the state, and it will require 
economic growth. However, I must emphasize that what Cote d'Ivoire 
needs is jobs, not growth per se. Many of the forms of ``growth'' 
measured by economists do not necessarily translate into jobs that pay 
a living wage for Ivorians, even if they result in economic activity. I 
hope that the activities of the U.S. Agency for International 
Development, and those of the World Bank, International Monetary Fund, 
African Development Bank and other institutions that receive American 
government funds will take this distinction to heart. What was once 
called the Ivorian ``miracle'' has been tarnished by 30 years of 
economic decline, and if there is a single root cause to the xenophobia 
and intercommunal violence in the country, it is that this decline has 
led to the perception that one's neighbor's gain is one's own loss.
    The winner-takes-all political culture that emerged over the last 
20 years was driven by the reality that the economic pie was shrinking 
and that the only way to promise jobs to one's base was to gut the 
civil service and the military upon taking power, and to fill those 
positions not with those who were best qualified, but with those who 
were perceived to be most loyal. A good example of this was the FESCI 
student union that turned into a criminal and quasi-military 
organization, and that gave us both Charles Ble Goude, the most 
inflammatory of Laurent Gbagbo's youth supporters, and Guillaume Soro, 
who was head of the Forces Nouvelles rebels until he became Prime 
Minister first in Laurent Gbagbo's and then in Alassane Ouattara's 
governments. In order to quiet them after the December 1999 coup 
d'etat, it was first putschiste Robert GueI who turned over the stock 
of university dormitory housing to the FESCI so that they could skim 
money off the top of every student's rent, and dole out the best rooms 
to their members and favorites. The FESCI thus was not presenting 
student concerns about grading practices or complaints about food in 
the cafeteria but was transformed into a mafiaesque protection racket 
that provided the country with some of its most ruthless and violent 
young politicians. Returning to the issue of jobs, the reason this was 
possible was because everyone involved understood that this type of 
distribution of political and economic favor stood in for the 
possibility that hard-working students might make a decent living upon 
graduation. The many young people who refused the violent and cynical 
trajectory of the FESCI students sat for years, even decades, 
unemployed, and in some cases returned embittered to their villages 
only to contribute to tensions over land ownership, as they reclaimed 
land their parents or grandparents had sold to ``strangers'' who have 
now often lived in those villages for decades or even generations.
    I mentioned that one of the challenges for creating jobs and thus 
social reconciliation was reinstating security. There are both 
challenges and opportunities for the disarmament, professionalization 
and integration of the security forces in Cote d'Ivoire. The greatest 
challenges are first that the Ivorian security forces have come 
primarily to terrorize, rather than to protect the civilian population, 
and second that inclusion into the army, gendarmerie, and the multiple 
militias in the country has become the primary means of employing 
potentially volatile unemployed young men. Members of all the armed 
services and all the militias, from the north and the south, have been 
credibly accused of abuses including rape, extrajudicial killings and 
torture. There is a U.N. commission of inquiry in Cote d'Ivoire now, 
and it is the fourth such commission to have to undertake 
investigations of human rights abuses in Cote d'Ivoire since 2002.
    Security Sector reform in Cote d'Ivoire will be difficult given 
obvious pressures to integrate the members of all of the northern 
forces that ultimately contributed to putting Alassane Ouattara in 
power. Whether he asked them to or not, they defeated the ostensibly 
pro-Gbagbo army, and then fought their way through Abidjan against 
proGbagbo military units, militias, and mercenary forces. They expect 
to be compensated for the risks they took. Managing these expectations 
will be a delicate balancing act. On one hand, incorporating the Forces 
Nouvelles Zone Commanders and other fighters into the military will 
help to take pressure off of Ouattara's civilian government. On the 
other hand, isolating the former Forces Nouvelles in the army could 
lead to an eventual coup. Either way, Ouattara will be far more 
beholden than he would like to Guillaume Soro and the other members of 
the ex-rebel forces that have now become the pro-Ouattara forces. The 
fact that these forces have been credibly accused of committing war 
crimes and atrocities both in Abidjan and in the interior introduces 
yet another complication. Ouattara needs to be seen to deal justly with 
these abusers at the same time that he deals with those from the Gbagbo 
side. Still, if he is too aggressive in pursuing Gbagbo and those close 
to him, he could plausibly find himself losing vital support in the 
country's south. This could take place not only among those who voted 
for Gbagbo, but also among those ambivalent supporters (many of them 
from Henri Konan Bedies PDCI party who might have voted as much against 
Gbagbo as for Ouattara) who are most interested in restoring a 
functioning state rather than pursuing what some will see as a settling 
of political scores.
    The U.S. Government has growing experience in security sector 
reform in Africa. There are a variety of approaches to this challenge. 
At one end of the spectrum is the process undertaken in Liberia, where 
the army was drawn down to zero, and a new military was recruited, 
vetted for human rights abuses, and trained from scratch by contractors 
hired by the U.S. Government. At the other end is the strategy (or 
nonstrategy, perhaps) used in the Democratic Republic of Congo, where 
members of all the combatant groups were integrated into the national 
army, most of them being allowed to retain the inflated ranks they had 
been given (or had given themselves) in the bush while fighting.
    The strategy in Cote d'Ivoire will probably have to borrow elements 
of both these approaches, and may resemble the SSR process undertaken 
in Guinea, in which the United States is already involved. There should 
be vetting of accused human rights abusers and war criminals from all 
sides, but it is unrealistic to think that the army will be drawn down 
to zero. Instead, noncriminal elements from all sides of the conflict 
should be incorporated, with clear plans to gradually draw down the 
size of the military over 10 to 15 years on the basis of meritocratic 
evaluation. In this way, the military can serve a useful function as a 
temporary social ``sponge,'' soaking up some portion of the most 
volatile young men who have experience making a living with guns. At 
the same time, by establishing clear criteria for evaluation, review 
and promotion (and ultimately for retention in the security forces), 
SSR could help to begin the process of reprofessionalizing a military 
that has become overly politicized, abusive, and characterized by 
extremely weak command and control discipline.
    Finally, there are several key measures that should be taken to 
promote the functioning of the Ouattara government and long-term peace 
and stability in Cote d'Ivoire. My first recommendation is that the 
U.S. Government lend significant financial and technical support to 
ensuring that legislative elections take place in a timely and credible 
manner. This will begin the important process of supporting a balance 
of powers, and will give supporters of Gbagbo's FPI party, Henri Konan 
Bedie's PDCI party and the other political parties in the country a 
sense that they will have their voices heard in the governance of their 
country. These elections (like last year's Presidential elections) are 
more than 5 years overdue, and the 2,000 legislative elections were 
badly flawed and characterized by high levels of violence. The U.S. 
Government should also support upcoming municipal elections. The 2002 
municipals are probably the most credible elections the country has 
known, and new municipal elections will help to reinstate the presence 
of a single government throughout the territory of Cote d'Ivoire.
    Far too often, foreign actors including the United States lend too 
much attention to Presidential elections and then walk away precisely 
at the moment that democratic practice is just getting a toehold in a 
country with limited democratic experience. Especially in the case of 
highly contested elections like the recent Presidentials in Cote 
d'Ivoire, it is vitally important for voters supporting all candidates 
to have the sense not that they are out in the cold for 5 or more 
years, but that they still have a role to play as voters and as 
citizens, and that their votes can lead toward the creation of a 
vibrant, balanced, and fair system. Most importantly, in such a system, 
their means of redress are not limited to taking up arms. Many African 
intellectuals are becoming increasingly cynical about the democratic 
mantra they sometimes portray as a Eurocentric import that is ill-
suited to African realities. I disagree, but the single-minded 
obsession with Presidential elections in fact gives an antidemocratic 
message, and contributes in very direct ways to creating autocrats, not 
democrats. The U.S. Senate and the House of Representatives like 
legislatures in Europe, Japan, and the emerging BRIC countries all have 
a role to play by budgeting for electoral support for legislative 
elections. What might seem an exorbitant amount now will only be 
dwarfed by the cost of U.S. support to peacekeeping missions when those 
on the outside decide that insurgency warfare is their only chance of 
getting into power.
    In the same vein, judicial reform is essential. Cote d'Ivoire has 
many well-qualified lawyers and judges, but the judicial system has 
become tremendously polarized and politicized. One area where the 
Ivorian justice system should play a central role is in the creation of 
improved systems of economic governance and financial accountability. 
For decades, the cocoa and coffee marketing board served as a political 
and personal slush fund for the party in power, its elites, and even 
French politicians, who would receive money from this fund when they 
had election campaigns in France. To say that these practices created 
very deleterious patterns that further contributed to the perception of 
politics as an all-or-nothing competition is an understatement. Over 
the past decade, the petroleum sector has become more lucrative than 
cocoa and coffee, and is in much greater need of reform. Initiatives 
like the World Bank-sponsored Extractive Industries Transparency 
Initiative offer a valuable model, but such an undertaking should be 
driven by Ivorian actors. The Ivorian judiciary and the legislature, 
should play central roles in drafting, enacting, enforcing and 
adjudicating Ivorian laws that will hold Ivorians to account for 
managing the country's wealth responsibly and honestly. Given the 
importance of Ivorian initiative and ownership of this process, this is 
an area where American support would be best undertaken in a spirit of 
advice and accompaniment, whereas in the area of security sector 
reform, the new government may welcome a more robust initiative by a 
U.S. Government that could be seen as a neutral third party.
    This third party role is not inconsequential. Especially given the 
French military role in ousting Laurent Gbagbo, President Ouattara will 
(or should) be keen to seek out less politically costly sources of 
support and advice. The United States has played this role in a number 
of other francophone African countries that have tense relations with 
France, such as Guinea and Rwanda. Provided that U.S. engagement 
remains truly neutral, such an engagement would be beneficial both to 
Cote d'Ivoire and to the United States, which has already invested 
heavily in helping Liberia, Guinea, and Cote d'Ivoire achieve peace and 
development.

    Senator Coons. Thank you, Doctor.
    Ms. Cooke.

STATEMENT OF JENNIFER COOKE, DIRECTOR OF AFRICA STUDIES, CENTER 
    FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Ms. Cooke. Chairman Coons, Ranking Member Isakson, Senator 
Inhofe, I'd like to thank you for the opportunity to testify 
today on the challenges of reconstruction and reconciliation in 
Cote d'Ivoire.
    It's important to keep in mind that the Ivoirian crisis did 
not begin with the recent election standoff, nor with Alassane 
Ouattara and Laurent Gbagbo. The country's social, class, and 
political fissures have longstanding roots dating to the years 
when the country was considered an African success case. 
Malgovernance, cynical manipulation of social divisions, and 
ultimately, civil war, have deepened these fissures. The recent 
standoff and the atrocities committed make their resolution all 
the more fraught and complex.
    In my testimony, I'd like to emphasize three areas for U.S. 
engagement.
    First, security. In the short-term, the United States 
should give full support to the U.N. mission in Cote d'Ivoire 
in quickly launching a process of disarmament and 
reintegration, assistance to refugees and displaced persons, 
and the restoration of regular forces and administrative 
structures throughout the country. In the longer term, it 
should play a role in vetting and helping reestablish 
professional, accountable security forces in Cote d'Ivoire. 
Security sector reform should not fall by default to the 
French, who are viewed with deep resentment by many Ivoirians, 
nor to the U.N., which may lack the capacities.
    The U.N. must approach Ivoirian security in the context of 
the broader West African region. Renewed conflict in Cote 
d'Ivoire could reenergize regional warlords. We saw fighters 
from Liberia moving in during the standoff. Likewise, securing 
Cote d'Ivoire could push fighters out over the border, into 
neighboring states. We've already had reports of supporters of 
Gbagbo moving into Ghana, with some suspicions that they may 
attempt a counteroffensive there. The United States should 
leverage its strong diplomatic and security relationships with 
Cote d'Ivoire's neighbors--Ghana, Liberia, Burkina Faso, and 
Mali--to ensure a holistic regional security approach.
    Second, reconciliation efforts. In the short term, 
reconciliation on the national level will depend, to a large 
extent, on the choices Ivoirian leadership makes, very soon, in 
building a broad-based government and ensuring evenhandedness 
in investigating and prosecuting atrocities. Going forward, the 
United States should give special attention to efforts 
targeting local communities traumatized by violence, and to 
youth. I'd like to echo Mike McGovern--it should also give 
robust support to preparations for eventual national 
legislative elections and the restoration of credible, 
impartial judicial institutions.
    Third, economic recovery and job creation. I'll keep this 
brief. But, again, transparency in the big contract areas--oil, 
electricity, customs--is a must, as is job creation. The United 
States might consider supporting a major public works project 
for the areas that were hardest hit in the conflict.
    Beyond the specific areas of U.S. engagement, I think how 
the United States engages will be almost equally important. The 
country is deeply divided. President Ouattara will be beset by 
multiple conflicting pressures that he needs to balance 
carefully to preserve stability and a fragile accord with 
former adversaries. He's being portrayed by his hard-line 
opponents as a puppet of the West, and needs to shake off this 
perception if he's to establish his authority. So, while the 
United States should avoid an uncritical embrace of the new 
leadership, it must be sensitive, in the short term, to the 
extremely difficult tradeoffs that must be made.
    Diplomatically, I'd like to say, the U.S. response to the 
standoff was exemplary--swift, intense, and sustained high-
level diplomacy, with the personal support and engagement of 
President Obama. It was undertaken in close concert with the 
regional and international partners. It offered a balanced 
approach of gradually escalating pressures and incentives for 
peaceful resolution and a graceful exit for Mr. Gbagbo. That 
the crisis was ultimately ended through the use of force should 
not detract from the merits of that approach. Ultimately, it 
isolated Mr. Gbagbo, weakened his systems of support, and 
prevented what could have been a much longer and bloodier 
conflagration.
    The United States should build on this powerful model of 
regional diplomatic engagement, should commend the ECOWAS for 
their principled stance and encourage their continued 
commitment to the continental norms of what they have set out 
for themselves in democracy and good governance.
    The United States should encourage other regional bodies to 
step up in defense of rule of law in similar situations. In 
this regard, SADC and the protracted political debacle in 
Zimbabwe, which may come to a head fairly soon, come most 
immediately to mind.
    I'm going to end my remarks there, but I'm very happy to 
take questions during the Q&A.
    Thank you, Mr. Chairman and members of the committee.
    [The prepared statement of Ms. Cooke follows:]

                  Prepared Statement of Jennifer Cooke

                        introduction and summary
    Chairman Coons, Ranking Member Isakson, and distinguished members 
of the subcommittee, I would like to thank you for the opportunity to 
testify today on the challenges of reconstruction and reconciliation in 
Cote d'Ivoire, challenges that will have important repercussions 
throughout West Africa and the broader continent, but most important in 
meeting the needs and aspirations of Ivoirian citizens for peace and 
for a voice in their political affairs.
    Having lived in Cote d'Ivoire in the days when it was considered an 
``oasis of stability'' in West Africa, I have followed developments 
there over many years with considerable personal interest--and sadness. 
Now as director of the Africa Program at the Center for Strategic and 
International Studies, I follow the country as an important test case 
for the consolidation of democratic norms in Africa, for concerted 
international engagement in preventive diplomacy and crisis response, 
and, going forward, for the long, hard slog of reconstruction and 
reconciliation.
    In my testimony I would like to emphasize three key areas for U.S. 
engagement over the longer term in Cote d'Ivoire:
    Security: In the short-term, the United States should give full 
support to the U.N. mission in Cote d'Ivoire in the process of 
disarmament and reintegration, the repatriation of refugees and 
displaced, and the restoration of regular forces and authorities 
throughout the country. In the longer term it should play a key role in 
assisting with the reestablishment of professional, accountable 
security forces in Cote d'Ivoire. It should also work capitalizing on 
his strong diplomatic and security relationships with neighboring West 
African countries--Ghana, Liberia, Burkina Faso, and Mali--to ensure a 
holistic, regional security approach.
    Reconciliation efforts: In the short-term, reconciliation on the 
national level will depend to a large extent on choices the Ivoirian 
leadership makes in building a broad-based government and in ensuring 
even-handedness in investigating and prosecuting atrocities committed 
against civilian populations. Going forward, the United States should 
give special attention to efforts targeting local communities 
traumatized by violence. It should also give robust support to 
preparations for eventual national legislative elections, the 
restoration of credible, impartial judicial institutions.
    Economic recovery and job creation: Job creation must be a priority 
for the Ivoirian Government, with an emphasis on labor-intensive 
sectors such as agriculture and construction. To jump-start a mass 
employment program, the United States might consider supporting a major 
public works program in those areas hardest hit by conflict, and longer 
term engagement in bolstering the agricultural sector in the North.
    As important as the areas of engagement with the new Ivoirian 
Government will be how the United States engages. The country is deeply 
divided, and mutual suspicions abound. President Ouattara will face 
multiple conflicting pressures that he will need to balance carefully 
to preserve stability and a fragile accord. He has been portrayed by 
his hard-line opponents as a puppet of the West and will need to shake 
off this perception to establish his authority. While the United States 
should avoid an uncritical embrace of the new leadership, it must also 
be sensitive to the precarious trade-offs that must be made in the 
short term.
    Finally, the United States should build on the powerful model of 
regional diplomatic engagement in the Ivoirian post-election crisis. It 
should commend African regional organizations and leaders for their 
principled stance and encourage their continued commitment to the 
continental norms of democracy and governance that they have set for 
themselves.
           understanding the fragility of the new government
    The 5-month standoff in Cote d'Ivoire between President Alassane 
Ouattara and previous incumbent Laurent Gbagbo ended on April 11 as 
opposition forces, with support from U.N. peacekeepers and French 
troops, forcibly extracted the former President, in flak jacket and 
helmet, from the basement of his residence in Abidjan. Gbagbo's refusal 
to relinquish power to President Ouattara, broadly recognized by the 
international community as the legitimate winner of the country's 
November 28 Presidential runoff election, precipitated a post-election 
stalemate that has left at least 3,000 Ivoirians dead and displaced 
over 1 million from their homes and livelihoods.
    The Ivoirian crisis did not begin with the recent election standoff 
nor with the persons of Alassane Ouattara and Laurent Gbagbo. Cote 
d'Ivoire's social, class, and political fissures have longstanding 
roots, dating to the years when the country was considered an African 
``success case'' and an economic ``miracle'' (see endnote). Fissures 
have deepened over time through years of economic decline, 
malgovernance, cynical manipulation of social divisions by political 
elites, and ultimately civil war. The standoff and post-election 
violence have served to deepen animosity, fear, and uncertainty in a 
society already deeply polarized and will make resolution of these 
issues all the more fraught and complex.
    The new government under President Ouattara will face a monumental 
task in addressing the interrelated challenges of restoring security, 
responding to demands for accountability and justice, galvanizing 
economic growth and employment, and setting the tone for a longer term 
process of local reconciliation and national unity.
    In undertaking these tasks, Ouattara will be beset by multiple 
competing pressures. The President will be pressed hard to respond to 
demands by supporters and allies--many of whom will have expectations 
of recompense for their role in helping bring him to office--and at the 
same time to be magnanimous in victory and take concrete steps to allay 
the suspicions and uncertainties of his opponents. He will be pressed 
by human rights advocates and the international community to mete out 
swift and impartial justice to those most responsible for the 
atrocities by armed actors committed over the last months and at the 
same time to maintain a fragile accord and avoid alienating powerful 
individuals and constituencies from among both his supporters and his 
political opponents. He will need the sustained assistance of the 
international community to rebuild and reintegrate the country, but 
will need to assert his own agency and that of his government and avoid 
the appearance of doing the bidding of external powers, an accusation 
used to powerful effect by his predecessor to discredit Ouattara in the 
eyes of pro-Gbagbo loyalists.
    In assisting Cote d'Ivoire to rebuild, the United States and 
broader international community should avoid an uncritical embrace of 
President Ouattara, a tendency that has bedeviled U.S. engagement with 
a number of post-conflict African leaders. Ouattara's leadership 
skills, political will, and commitment to genuine conciliation are as 
yet untested in practice, and the United States will want to gauge 
progress objectively and calibrate engagement and support accordingly. 
Nonetheless, in the short term at least, international partners need to 
be acutely aware of the precarious balancing act that Ouattara must 
perform and the narrow parameters in which he can operate. 
International partners must give him the space he needs to assert his 
leadership and authority, particularly as he seeks to build and 
maintain a ruling coalition and reestablish order and the authority of 
regular forces and administrative structures.
           priority challenges and areas for u.s. engagement
Security and security sector reform
    A first priority for the new Ivoirian Government must be to restore 
basic security to the country and rein in the various militias from all 
sides. Having marched southward in their campaign to topple Gbagbo, 
various factions of the Forces Republicaines de Cote d'Ivoire (FRCI, 
formerly the Forces Nouvelles) now occupy police offices, military 
headquarters, and neighborhoods in Abidjan, at times competing with one 
another to divide and control zones within the city. Populations in 
rural areas, particularly in the country's West, deeply traumatized by 
the brutal violence of the past month, remain vulnerable and fearful of 
renewed violence and the return of militias or mercenary forces from 
across the border in Liberia. Guillaume Soro, currently Prime Minister 
and Minister of Defense, has for now the allegiance of the majority of 
FRCI commanders, but his authority and commitment to peace (and to 
Ouattara) will be tested in persuading these forces to quit the spoils 
of Abidjan and other towns and return northward. Soro is a key 
personality to engage. He is young and politically ambitious, with the 
leverage of the FRCI behind him. He is very likely expecting to remain 
in a senior position in Ouattara's future Cabinet, and he may balk at 
serious investigations of atrocities committed by forces under his 
ostensible command. The role of Soro's forces in neutralizing Ibrahim 
Coulibaly, his personal rival, in the aftermath of Gbagbo's arrest, 
reveals a ruthless streak that does not bode well for reconciliatory 
tendencies. But there is also an opportunity for him to demonstrate 
magnanimity, restraint, and his potential as national statesman. The 
United States should encourage him in this regard.
    Disarmament, demobilization, and reintegration (DDR) of armed 
actors, as well as the integration of personnel into a professional 
national security force, will be somewhat less fraught than in the 
frozen uncertainty of the last 5 years, but it will nonetheless be a 
highly sensitive and difficult endeavor. In keeping with the 2007 
Ouagadougou Accord, a force of 80,000 (55,000 military and 17,000 
police) is envisioned, including 5,000 integrated from among the FRCI. 
A renewed mandate by the U.N. mission in Cote d'Ivoire (UNOCI) is 
likely to include DDR in its purview. The United States should provide 
the support required to ensure this process can go forward quickly and 
should push for coordination with the U.N. mission in Liberia, given 
the flow of arms and fighters across the two countries' shared border.
    The task of longer term security sector reform (SSR) will best be 
undertaken by bilateral partners. Because French engagement has been so 
deeply polarizing in Cote d'Ivoire, the United States should consider 
stepping up in partnership with France and perhaps the United Kingdom, 
to support a more nationally credible and acceptable SSR process. The 
United States can build on experiences in SSR in Liberia, including 
vetting and training military forces, but also developing accountable 
and professional police services.
    Cote d'Ivoire's security must be seen in the context of the broader 
West African region. Renewed conflict in Cote d'Ivoire could reenergize 
militia groups, regional warlords, and young men with few economic 
opportunities. In this recent standoff, we saw the reentry of Liberian 
mercenaries into Cote d'Ivoire's Western region. Likewise, securing 
Cote d'Ivoire could push Ivoirian militias and warlords over the border 
into neighboring states to seek mercenary/profiteering opportunities 
elsewhere. Already, reports of Gbagbo's rump forces fleeing into Ghana 
with apprehension mounting that they may seek to base there to mount a 
coup or destabilizing putsch. The United States should leverage its 
strong diplomatic and security relationships with Cote d'Ivoire's 
neighbors to assist in monitoring and preempting any efforts to 
destabilize or reignite violent conflict.
National and local reconciliation
    Reconciliation will be a long and arduous process, but the 
country's leadership must take immediate steps to set the tone and 
translate promising rhetoric into action. At a national level, 
Ouattara's follow-through on promises to form a broad-based, inclusive 
government will be closely scrutinized. Equally important will be his 
seriousness in investigating crimes committed by all sides during the 
conflict and bringing key perpetrators--of whatever political leaning--
to account. Even-handedness and regional balance in restoration of 
basic services, delivery of humanitarian assistance, and longer term 
investments in education, reconstruction, and employment generation are 
equally critical components of reconciliation. Free and credible 
legislative elections, slated to take place in the coming year, and 
empowerment of the legislature and an independent judiciary will be 
important in building a genuinely national government. U.S. assistance 
with electoral preparations and in strengthening judicial institutions 
should be a high priority, along with security sector reform.
    Equally--if not more--important will be reconciliation throughout 
the country at the local level. Much of the violence of the last 10 
years, and of the last 5 months, was inflicted on local civilian 
populations by local militias with parochial rather than national 
objectives. As a first step, citizens need to be assured of their 
safety, their grievances must be heard and redressed, and 
investigations into the crimes committed must be robust and credible. 
Over the longer term, the United States and international community 
should support local initiatives on reconciliation through civil 
society actors, media and communication strategies, with a particular 
emphasis on youth, who have grown up in an increasingly divided country 
with national role models like militia leaders Ble Goude and Guillaume 
Soro. This is an area where the United States should consider 
supporting innovative uses of communication technology, which has been 
so transformative in neighboring Nigeria and further afield in building 
constituencies and national dialogue.
Jump-starting the economy and generating economic opportunity
    The many tasks that confront the new government will be made easier 
in a climate of economic recovery and growth. Businesses suffered major 
losses during the standoff, and investor confidence was badly shaken. 
Financial flows and loans cut off during the standoff to increase 
pressure on an intransigent Gbagbo need to be quickly restored. Cocoa 
and the agro-industry can likely recuperate in reasonable time, 
although the government may wish to offer tax advantages or similar 
incentives to mitigate the damage inflicted during the crisis and 
accelerate recovery. The government should be pushed to ensure far 
greater transparency in the big-money public contract arena, such as 
oil, electricity, and customs--both to ensure efficiency and set a new 
standard for opening public accounts to public scrutiny. Over the 
longer term, job creation must be a priority with an emphasis on labor-
intensive sectors such as agriculture and construction. This will be 
particularly important in the impoverished North where investments in 
traditional agricultural mainstays--cotton and cashew production--have 
languished and should be accelerated. The government might consider 
launching in the near term a major public works program to rebuild a 
decaying infrastructure, restore electrification, sanitation, and 
expand access to clean water.
    As an economist and former senior official in the International 
Monetary Fund, President Ouattara should be well-suited to map out a 
plan to restructure and revitalize the economy, but he will need 
considerable external support to implement such a plan in the short 
term.
            the regional implications of the ivoirian crisis
    Throughout the post-election standoff, the international community 
came together with remarkable resolve and consensus in seeking a 
diplomatic solution to the crisis. Its efforts were critical in 
averting what very easily could have been a much longer and more 
devastating humanitarian disaster. It should now seek to preserve that 
unity of purpose and resolve in assisting the country to rebuild, 
reconcile, and respond to the needs of its citizenry.
    Cote d'Ivoire has not generally been a top-tier issue in U.S. 
policy toward Africa, as it has traditionally been seen as more firmly 
within the French sphere of influence and engagement. But the post-
election crisis brought home in a very stark way what was at stake for 
broader U.S. interests in Africa: in upholding the principles of 
democracy and supporting the aspirations of citizens to choose their 
leaders; in conflict prevention; in safeguarding investments in 
regional security; and in supporting regional organizations as they 
seek to entrench norms of good governance and respect for the rule of 
law. The U.S. response was exemplary: swift, intense, and sustained 
high-level diplomacy, with the personal support and engagement of 
President Obama. It was undertaken in close concert with regional and 
international partners, and offered a balanced approach of gradually 
escalating pressures, as well as incentives for peaceful resolution. 
That the crisis was ultimately ended through the use of force should 
not detract from the merits of the approach, which isolated Gbagbo, 
weakened his systems of support, and prevented what could have been a 
much bloodier conflagration.
    Perhaps the single most important factor in building international 
resolve was the early and relatively united response from the regional 
grouping ECOWAS, the Economic Community of West African States. That 
early commitment and voice helped catalyze a series of expanding 
circles of consensus that helped shape an international strategy 
remarkable in its unanimity. The United States should acknowledge and 
support that kind of principled, collective diplomatic approach by 
African regional players, and could encourage other regional bodies to 
step up in defense of rule of law in similar situations--the Southern 
African Development Community (SADC) and the protracted political 
debacle in Zimbabwe, which may come to head in the coming year, come 
most immediately to mind. The United States should commend the 
leadership role of ECOWAS chair President Goodluck Jonathan of Nigeria, 
who despite his engagement in electoral preparations of his own 
nonetheless gave heft and drive to the regional grouping's response. In 
late March, Nigeria cosponsored with France a Security Council 
resolution condemning the use of heavy weapons against civilians by 
Gbagbo forces and mandating UNOCI to remove them.
    The early ECOWAS response brought the African Union initially on 
side. Both organizations recognized Alassane Ouattara as the legitimate 
electoral winner and suspended the country from membership as long as 
Gbagbo remained in office. Their voice was almost certainly critical in 
bringing China and Russia on board in the Security Council in 
recognizing Ouattara as the winner (although U.S. Ambassador to the 
U.N. Susan Rice reportedly played an important role in doggedly 
persuading the initially reluctant Russians to agree) and in a 
generating a unanimous General Assembly vote recognizing Ouattara as 
Cote d'Ivoire's legitimate leader.
    The concerted international response enabled a gradual layering on 
of sanctions--suspension of World Bank assistance and funding from the 
West African Central Bank, travel bans against Gbagbo and his coterie 
by the United States and European Union, freezing of Gbagbo's U.S. 
assets, a boycott of Ivoirian cocoa exports, withdrawal of Western 
banks, and ultimately a U.N. resolution giving greater powers to U.N. 
forces for civilian protection. As the crisis went on, fissures 
appeared within the African Union, with major powers Angola, South 
Africa, and Uganda persisting in support for Gbagbo, making an end-run 
around ECOWAS leadership. Ultimately a five-member panel of African 
heads of state, including South Africa's Jacob Zuma, came on side with 
ECOWAS and the broader international community, an important signal to 
Gbagbo and his supporters of how isolated he had become.
    The international response to Cote d'Ivoire was an important rebuke 
to the precedent in which a Presidential incumbent, in the face of 
electoral defeat, need only cling to office and threaten force to 
maintain power, or at worst keep a seat at the table in a negotiated 
power-sharing deal. There were circumstances unique to Cote d'Ivoire 
that made concerted push-back possible, but the experience will 
nonetheless send an important signal to other African leaders who may 
wish to prolong their stay in office.
    But the crisis is not yet over, and the Cote d'Ivoire will remain 
fragile for many years to come. A return to civil conflict could have 
devastating regional consequences, with the possibility of 
destabilizing outflows of refugees and economic impacts on neighboring 
countries that rely on the country for goods, jobs, and access to the 
port in Abidjan. Cote d'Ivoire was a critical piece in the regional 
``conflict system'' that engulfed Liberia and Sierra Leone from the 
mid-1990s, with arms, young men, and proxy militias moving fluidly 
across borders, with instability in one country metastasizing to 
broader regional insecurity. This conflict system, spearheaded by 
Liberia's Charles Taylor, engulfed Sierra Leone, Liberia, and Cote 
d'Ivoire; drew in proxy fighters from Guinea; was facilitated by Blaise 
Compaore of Burkina Faso; and was fueled by financial and military 
support from Muammar Qaddafi of Libya. Both Sierra Leone and Liberia 
remain vulnerable, despite major international investments in U.N. 
peacekeeping missions and development assistance. Neighboring Guinea 
narrowly escaped a violent post-election meltdown just last summer. 
President Compaore is facing a sustained challenge to his rule both 
from elements of his military and his general public.
    ECOWAS was clearly attuned to the potential regional impacts of 
renewed crisis in Cote d'Ivoire, and going forward the United States 
should work with ECOWAS and the broader international community in a 
long-term regional security strategy.
                               conclusion
    The United States has played a robust and positive diplomatic role 
in bringing the immediate crisis to a conclusion and reinforcing the 
evolving role of African regional bodies in upholding principles of 
democracy and good governance. It must now sustain its engagement as 
Cote d'Ivoire embarks on the long road to economic recovery, national 
reconciliation, and security sector reform. In this it should give 
robust support to President Ouattara's efforts to rebuild the country 
and restore social cohesion, but it should condition longer term 
support on demonstrable commitment to conciliation and participatory 
governance.
                                 ______
                                 

             Endnote: A (Very) Brief History of the Crisis

    Cote d'Ivoire's social, class, and political fissures have long-
standing roots, dating to the years when the country was considered an 
African ``success case'' and an ``economic miracle.'' In the 1960s and 
70s, Cote d'Ivoire was a major economic engine in West Africa, the 
world's largest producer of cocoa, the third largest producer of 
coffee, rich in gold and timber resources, with a major port, good 
infrastructure, and an attractive investment climate. Among the reasons 
for the country's economic growth was that the country's first 
President, Felix Houphouet-Boigny, encouraged and welcomed workers from 
the north of the country and from northern neighbors Burkina Faso and 
Mali to work the lucrative plantations in Cote d'Ivoire's West and 
South. In addition to providing labor in the plantations, these 
migrants and immigrants often took on jobs that southern Ivoirians 
considered menial and underpaid. Many migrants settled and had children 
and families, who have been there now for generations. An estimated 25-
30 percent of the population is of immigrant stock.
    Although Houphouet brought considerable economic prosperity to Cote 
d'Ivoire, he did little to strengthen institutions and norms of 
participatory governance, political succession, or equitable economic 
growth. The country's strong economic performance masked unresolved 
issues of national identity, land tenure, and social fissure. In the 
1990s, Houphouet's anointed successor, Henri Konan Bedie, presided over 
increasing levels of corruption and an economic decline brought on by 
global commodity price shocks and financial mismanagement. As his 
political support began to wane, Bedie popularized the concept of 
Ivoirite, or a ``true'' Ivoirian identity. Bedie's xenophobic rhetoric 
resonated with many in the South who were seeing their fortunes decline 
and began to blame foreigners for taking jobs away. Burkinabe were the 
principal scape-goats, but northerners more generally came to be lumped 
in as well. Alassane Ouattara, despite having served as Prime Minister 
under Houphouet, was excluded from successive elections because of 
questions about his parentage and nationality. He became a rallying 
point for northern grievances and feelings of exclusion.
    A military coup in 1999 ousted Bedie, and elections in 2002 (also 
contested) brought Laurent Gbagbo to power. Ouattara was again excluded 
from those elections on the basis of his alleged nationality, 
intensifying northerners' feeling of disenfranchisement and exclusion. 
In September 2002, members of the Ivoirian military (largely northern) 
mutinied and quickly seized control of key positions in the country's 
north. These forces ultimately joined with other opposition militias to 
create the Forces Nouvelles. Conflict escalated and in 2003 a U.N. 
peacekeeping force was deployed, backed by French forces. The French 
deployment created a buffer zone between North and South, dividing the 
country in two and freezing it into a situation of neither peace nor 
war. Gbagbo's 5-year term came to an end in 2005, but elections were 
postponed six times in 5 years, as progress on disarmament and 
resolving questions of identity and voter eligibility stalled.
    Elections were eventually held on October 31, 2010, and a runoff 
between Ouattara and Gbagbo was held on November 28. After the 
Independent Electoral Commission announced a 54.1 percent to 45.9 
percent outcome in favor of Ouattara, the country's Constitutional 
Council annulled results in select northern precincts, giving Gbagbo a 
51 to 49 percent victory. ECOWAS and the U.N., which in successive 
agreements signed by Gbagbo in Pretoria and Ouagadougou were given an 
explicit role in ensuring the integrity of the election process, 
endorsed the Electoral Commission's announced tally, recognizing 
Ouattara as the country's chosen president. Gbagbo and Ouattara swore 
themselves in as President in separate ceremonies, precipitating the 
standoff that ultimately ended on April 11.
    It is important to note that in signing the AU-brokered Pretoria 
Accord in 2005 and the ECOWAS-brokered Ouagadougou Accord of 2007, 
Gbagbo himself explicitly invited the U.N. and ECOWAS to engage in all 
phases of the electoral process to ensure free, fair, and transparent 
elections and to act as guarantors of the agreements. An amendment to 
the Ivoirian electoral code in 2008, by Gbagbo's decree, gives the U.N. 
Special Representative in Cote d'Ivoire, as well as the ECOWAS 
facilitator (Burkina Faso President Blaise Compaore), a role in 
certifying the results. Security Council Resolution 1765, issued in 
2007, with Gbagbo's acquiescence, gives the U.N. Special Representative 
in Cote d'Ivoire the mandate of certifying the election processes and 
results. On the domestic front, the Ivoirian Constitutional Court, 
which has the power either to annul or endorse election results in 
their entirety; it is not empowered to simply cancel results in select 
precincts and thereby change the final tally.

    Senator Coons. Thank you, Ms. Cooke.
    Dr. Gilpin.

  STATEMENT OF DR. RAYMOND GILPIN, DIRECTOR OF THE CENTER FOR 
   SUSTAINABLE ECONOMIES, UNITED STATES INSTITUTE OF PEACE, 
                         WASHINGTON, DC

    Dr. Gilpin. Chairman Coons, Ranking Member Isakson, Senator 
Inhofe, I am grateful for this opportunity to appear before 
this subcommittee to testify on the economic costs and 
consequences of the recent post-election crisis in Cote 
d'Ivoire.
    The views I'll express are my own. However, they are 
informed by my work at the United States Institute of Peace, as 
well as firsthand knowledge of the Ivoirian domestic, economic, 
and political environment, having lived in Cote d'Ivoire from 
1998 to 2000, during my tenure at the African Development Bank 
group.
    The structure of economic activity in Cote d'Ivoire has 
contributed to a climate of inequity and mistrust that fueled 
violent and protracted conflict and unrest in recent years. 
This is why economic reconstruction in Cote d'Ivoire must not 
be ``business as usual.'' The approach should be conflict-
sensitive, with a keen focus on easing intergroup tensions, 
providing incentives for supporters
of the peace process, and laying the foundation for equity and 
sustainability.
    Empirical work at the IMF suggests that Cote d'Ivoire has 
lost as much as $8.7 billion in subregional trade alone over 
the past decade. In the months since the contested November 28 
elections, the Ivoirian economy has experienced a number of 
setbacks. In the cocoa industry--and we know Cote d'Ivoire is 
the world's most important exporter--unrest and uncertainty 
halted exports; a liquidity crunch in the financial system 
constrained buying; and a host of nontariff barriers and 
bottlenecks facilitated smuggling to neighboring countries. 
Consequently, the economy lost revenue; farmers received less 
than half of the regular market price for their produce; trade 
was diverted; and farming communities became increasingly 
indebted and destitute.
    Nonpayment on the 2.3 billion Eurobond coupon increased 
Cote d'Ivoire's risk profile, especially since this Eurobond 
issue was the second time the country's longstanding 
international debt has been restructured. This is bad news for 
an economy that relies on foreign direct investment for a 
significant chunk of capital inflows. The alternative would be 
other investors who are less likely to do business in a 
transparent and development-friendly manner. And this is 
particularly worrisome in view of Cote d'Ivoire's fledgling oil 
and gas sector.
    Economic reconstruction efforts in Cote d'Ivoire should 
focus on establishing macroeconomic stability and structural 
reforms that promote two things: equity and growth. A conflict-
sensitive approach to these issues should aim to do three 
things. First, it should transform the economic landscape and 
ensure access and equal opportunity for all. Second, it should 
carefully analyze incentive frameworks for key actors and 
groups. And third, it should prioritize the provision of 
appropriate and adequate safety nets for those who have borne a 
disproportionate share of the economic consequences of the 
recent conflict.
    In the weeks following the resolution of the recent crisis, 
the international community has responded by easing sanctions, 
pledging additional humanitarian assistance, and reinstating 
suspended development assistance projects. This is commendable, 
but there is still a lot that could be done. And I believe that 
careful attention should be paid to five key issues.
    First, mechanisms should be adopted to promote 
coordination, define leadership responsibilities, and ensure 
that all instruments of foreign policy such as security, 
economic development, rule of law and diplomacy should be 
balanced and collectively reinforcing.
    Second, steps should be taken to involve the local labor 
force and local firms in the provision of humanitarian 
assistance and in the repair of physical infrastructure. This 
will have the dual benefits of creating income-generating 
opportunities outside the public sector and garnering buy-in 
from affected communities.
    Third, partners should design quick-disbursing initiatives 
to address indebtedness and ease credit bottlenecks in farming 
communities. These projects should aim to strengthen, and not 
replace, existing social capital.
    Fourth, strategies should be designed to improve Cote 
d'Ivoire's investment profile by addressing a host of issues, 
and also providing technical assistance to improve the 
management of Cote d'Ivoire's external debt and international 
reserves.
    And, finally, stakeholders should establish a clear 
baseline of easily measurable benchmarks that will enable us to 
track progress and reduce the likelihood of misuse, abuse, and 
waste.
    I believe that these steps will help put Cote d'Ivoire on a 
path toward meaningful, sustained, and sustainable economic 
recovery. But, this is not achievable in isolation. It should 
be done in concert with reconciliation, security sector reform, 
governance, and rule of law.
    Thank you very much. And I will be happy to respond to your 
questions.
    [The prepared statement of Dr. Gilpin follows:]

                Prepared Statement of Dr. Raymond Gilpin

    Mr Chairman, Ranking Member Lugar, members of the committee, I am 
honored to testify before the Committee on Foreign Relations 
Subcommittee on African Affairs on the economic costs and consequences 
of the recent post-election crisis in Cote d'Ivoire, which lasted from 
November 28, 2011, until the ouster of former President Laurent Gbagbo 
on April 10, 2011.
    The views expressed in this testimony are my own. They are informed 
by my work at the United States Institute of Peace (USIP) which 
provides analysis, training, and tools to help prevent, manage, and end 
violent international conflicts, promote stability, and professionalize 
the field of peacebuilding. In directing the Sustainable Economies 
Center of Innovation at USIP, I lead research and field work on 
economic dimensions of peacebuilding in conflict-affected countries 
like Cote d'Ivoire. We leverage extensive partnerships in conflict 
zones to deepen our understanding of complex and evolving dynamics on 
the ground and sharpen our insights on remedial strategies that are 
both practical and effective. I also draw from first-hand knowledge of 
the Ivorian domestic economic and political environment, having lived 
in Cote d'Ivoire from 1998 to 2000 during my tenure as a senior 
macroeconomist at the African Development Bank Group. As a development 
economist, I have followed events in Cote d'Ivoire closely for over two 
decades.
                      economic roots of the crisis
    The evolution and structure of the Ivorian economy is central to 
understanding the current crisis. Since the 1940s, agricultural exports 
have been the mainstay of the economy. Pro-private sector policies 
adopted by the first President, Felix Houphouet Boigny, established a 
tradition of strong, export-led growth in the 1960s. Houphouet Boigny 
promoted investment, minimized price distortions, facilitated trade by 
improving vital infrastructure and provided credit/extension services 
for farmers. Within a decade Cote d'Ivoire had become a world leader in 
cocoa exports, macroeconomic performance was robust and the Ivorian 
economy was a regional powerhouse. However, these gains masked growing 
regional inequalities. While the vast amount of manual labor required 
for cocoa plantations in the South was provided by migrant workers from 
the North (a significant proportion of whom were from neighboring 
countries), most of the farms and agro-businesses were owned by the 
relatively more prosperous Southerners. The main political party, the 
PDCI (Parti Democratique de Cote d'Ivoire; the democratic party of Cote 
d'Ivoire) had its base in the South and ensured that most government 
and private sector investment was concentrated in the South.
    By the mid-1970s the structural dynamics of the cocoa industry had 
effectively created a two-tier society based on an increasingly 
accentuated North-South divide. Infrastructure, services, and amenities 
were virtually nonexistent in the North. Health and education 
facilities were woefully deficient and economic opportunity was 
limited. The opposite was true in the South. Deep poverty and 
deprivation in the North were in stark contrast to the advancement and 
burgeoning wealth in the South. That Abidjan (the commercial capital in 
the South) earned the moniker ``Petit Paris'' speaks to the vast 
disparities that existed. The discovery of oil and gas reserves in 1975 
and Cote d'Ivoire's ascendency as a regional financial hub in the 1980s 
only served to widen the gap, as the structural arrangements 
established in the cocoa industry were replicated in the oil and gas 
sectors. Relatively little of the nation's wealth made its way to the 
North.
    The oil shocks and commodity price downturn of the early 1980s 
delivered a double blow to the Ivorian economy. As export earnings fell 
and import bills rose, the government introduced a program of stringent 
austerity measures. This unpopular program coincided with increased 
calls for more meaningful political and economic participation by 
groups in the North. There was restlessness in the South as the impacts 
of the cuts began to deepen, assets lost value and Southern political 
dominance was threatened by calls from most Northerners for greater 
inclusion in the political process. There was also restlessness in the 
North as groups with ethnic ties to neighboring countries felt 
marginalized and were convinced that they were bearing a 
disproportionate share of the austerity measures (particularly 
unemployment and lower wages). The faultlines had an ethnoreligious 
element. The predominately Christian South is mainly comprised of 
members of the Baoule ethnic group, while the predominantly Muslim 
North is made up of a number of smaller ethnic groups.
    The economic and political turmoil of the 1980s and 1990s sowed the 
seeds of discord that led to the violence that typified the first 
decade of this century. Houphouet Boigny successor, Henri Konan Bedie, 
compensated for his relatively poor political and leadership skills by 
playing on the now openly fractious North-South divide. The overthrow 
of Bedie in 1999 and the subsequent de facto partition of the country 
in 2002 further accentuated the relative deprivation of the North.
    The 2010 elections were the first truly national elections in Cote 
d'Ivoire, with credible candidates fielded from all regions. The 
November 28 Presidential runoff pitted the incumbent Laurent Gbagbo of 
the Southern-based FPI (Front Populaire Ivoirien--Ivorian Popular 
Front) party against the Northern-based RDR (Rassemblement des 
Republicaines--Rally of Republicans) candidate Alassane Ouattara. 
Although regional and international observers adjudged Ouattara to have 
been the winner, Gbagbo contested the results. The country's 
Constitutional Council nullified some 600,000 votes in the North and 
declared Gbagbo President. Both candidates held swearing-in ceremonies. 
This set the stage for a 5-month stalemate that ended with the forcible 
ousting and arrest of Gbagbo on April 10, 2011.
          economic costs of the post-2010 elections stalemate
    Even though the Ivorian economy had been reeling from almost a 
decade of violent conflict and political instability, the post-
elections stalemate imposed additional economic costs. Analysts 
estimate that conflict over the past decade has cost Cote d'Ivoire some 
$8.7 billion in lost trade within West Africa; global estimates will be 
much higher.\1\ The full economic costs of the post-elections crisis 
are still being assessed. There is also some evidence of substantial 
trade diversion to neighboring countries as traders and investors vote 
with their feet. The combination of significant financial losses and 
potential structural changes in trading relationships could constrain 
Cote d'Ivoire's recovery.
---------------------------------------------------------------------------
    \1\ Philippe Egoume-Bossogo and Ankouvi Nayo, ``Feeling The 
Elephant's Weight: The Impact of Cote d'Ivoire's Crisis on WAEMU 
Trade,'' International Monetary Fund Working Paper No. 11/80, April 1, 
2011. (www.imf.org/external/pubs/cat/longres.aspx?sk=24784.0)
---------------------------------------------------------------------------
    The Ivorian economy became a post-elections battleground as Gbagbo 
sought to solidify his hold on power by controlling revenue streams 
from the cocoa industry, petroleum sector, and financial sector. Even 
though the economy had been weakened, it still held the prospects of 
significant current and future revenue streams, which Gbagbo needed to 
pay salaries, provide basic services and prosecute the ongoing civil 
war. For his part, Ouattara put in motion a series of events that 
sanctioned economic activity in a bid to prevent Gbagbo from 
controlling state economic assets. Both sets of action had serious 
economic costs.
Costs to the Cocoa Industry
    Cote d'Ivoire is the world's leading cocoa exporter. It contributes 
some $1.3 billion in annual revenues, making it a lucrative revenue 
source. The main 2010 harvest was almost over when the unrest started 
and most farms and storage facilities were neither damaged nor 
destroyed. An estimated half a million tonnes of cocoa were already in 
preshipment storage facilities. Gbagbo started to run out of financing 
options in early 2011 as financial sanctions imposed by the West 
African central bank, the BECAO (Banque Centrale des Etats de l'Afrique 
de l'Ouest; the central bank for francophone West Africa), the European 
Commission and the United States started to take effect. He attempted 
to wrest control of the industry after failing to convince major 
exporters to prepay taxes and otherwise support his cause. Outtara 
countered by successfully orchestrating a ban on cocoa exports and the 
three main exporters (Cargill and Archer Daniels Midland of the United 
States, and Swiss-based Barry Callebaut AG) suspended exports.
    These developments imposed a number of costs. First, fears of a 
prolonged supply disruption put upward pressure on world cocoa prices, 
which hit a 32-year high of $3,775/tonne on March 4. The 7 million 
Ivoirians involved in the cocoa industry did not benefit from this 
price hike since exports were suspended. Second, on account of the 
sanctions an estimated 450,000 tonnes of cocoa was not exported and 
remained in warehouses for months.\2\ Although rotting was minimal 
(only about 10 percent), many analysts believe that the quality could 
have deteriorated forcing exporters to accept much lower prices. Third, 
cocoa prices could also be dampened by the supply glut that will be 
created as the stockpile is released. The combined effects of these 
factors could run into tens of millions of dollars in losses.
---------------------------------------------------------------------------
    \2\ David Brough and Nick Edwards, ``Cocoa Stores in Ivory Coast 
Still Useable,'' Reuters, April 6, 2011, (www.reuters.com/article/2011/
04/06/us-cocoa-ivorycoast-idUSTRE7352PP20110406)
---------------------------------------------------------------------------
    In addition to these macro level costs there are a number of farm-
level costs that might be even more pernicious.\3\ Post-elections 
insecurity led to the displacement of roughly 1 million, while 150,000 
fled to neighboring countries. Many of these were members of the 
industry's large workforce--including those involved in buying and 
transportation. Farmers who had not transported their produce to the 
warehouses in the port city of San Pedro before the onset of the unrest 
faced serious difficulties. First, a liquidity crunch meant that buying 
agents did not have cash to pay farmers for their produce.\4\ Checks 
were not clearing and the Gbagbo administration imposed limits on 
withdrawals. Second, various militia ``taxed'' cargo on the highways. 
Third, most of the usual transporters and buyers had fled. And, fourth, 
warehouses were full and not accepting any new produce. Consequently, 
farmers sought alternative channels to sell their produce--most of 
which was smuggled via neighboring countries. During the first 4 months 
of 2011, the cocoa marketing agency in neighboring Ghana recorded a 50-
percent increase in exports over the same period in 2010.\5\ Smuggling 
cost the Ivorian economy millions in lost business and revenue.
---------------------------------------------------------------------------
    \3\ Orla Ryan, ``Ivory Coast Cocoa Farmers Get Taste Of Politics,'' 
Financial Times, February 14, 2011. (www.ft.com/cms/s/0/flee97b8-3864-
11e0-959c-00144feabdc0.html#axzz1MXmYe2C4)
    \4\ Loucoumane Coulibaly, ``Ivory Coast Cocoa in Disarray from 
Crisis-Farmers,'' Reuters, February 2, 2011. (af.reuters.com/article/
investingNews/idAFJOE7110GX20110202)
    \5\ The Ghanaian authorities attributed the increase to a bumper 
crop but analysts believe that that Ivorian cocoa accounted for some of 
the increase.
---------------------------------------------------------------------------
    Farmers were also forced to accept significantly lower prices for 
their produce (at a time when prices were peaking at record highs). 
Without other viable options, the farmers had to sell to the few buyers 
with liquidity, who took advantage of the crisis to underpay for the 
cocoa beans. So, while Cote d'Ivoire's farmers had to contend with much 
higher prices for food and fuel, they received only 50-60 percent of 
what that they would normally have been paid for their produce. This 
situation compounded their hardship, increased household debt burdens, 
and constrained their ability to invest and fully prepare for the 
coming season.
    Cote d'Ivoire's cocoa marketing woes persisted even after the 
ousting of Gbagbo. Liquidity remains problematic, tax and tariff 
payments are complicated because customs officials do not accept checks 
and credit is still scarce. These constraints require urgent action if 
the costs to the economy and cocoa farmers are to be minimized.
Costs to the Petroleum Sector
    With production levels below 60,000 barrels per day and 100 million 
in proven oil reserves, Cote d'Ivoire is not a major oil producer.\6\ 
However, the sector accounts for roughly one-third of the country's 
export. Cote d'Ivoire also has significant refining capacity that 
services both domestic and regional markets. Potential new oil and gas 
fields could boost output. For example, Block CI-112 off the western 
coast could hold over 2 billion barrels of crude reserves, while Block 
CI-40 along the southern coast could hold up to 200 million barrels. 
Insecurity will impact the likelihood (and quality) of investment. 
Promising exploration for new oil and gas fields were suspended because 
of the post-elections crisis. Texas-based Anadarko Petroleum 
Corporation and U.K.-based Tullow oil halted exploration in fields that 
analysts believe could have doubled Cote d'Ivoire's output in a few 
years.\7\ One of the new fields could potentially add an estimated 550 
million barrels to the proven reserves. Although not a major setback 
(as exploration is likely to resume shortly), the delay will result in 
increased costs and increased wariness by investors.
---------------------------------------------------------------------------
    \6\ U.S. Energy Information Administration. ``Cote d'Ivoire,'' 
Country Analysis Brief, August 1, 2010. (www.eia.doe.gov/countries/
country-data.cfm?fips=IV)
    \7\ Edward Klump and Eduard Gismatullin, ``Anadarko, Tullow Halt 
Ivory Coast Oil Exploration on Violence,'' Bloomberg, February 24, 
2011. (www.bloomberg.com/news/2011-02-24/anadarko-tullow-halt-ivory-
coast-oilexploration-on-violence.html)
---------------------------------------------------------------------------
Costs to the Financial Sector
    A major financial issue in the post-election crisis was the payment 
of the country's $29 million coupon payment on $2.3 billion Eurobond 
issue. These dollar-denominated bonds were basically past-due Brady 
Bonds owed to commercial creditors that were rescheduled in April 2010. 
This is the second time this stock of debt has been rescheduled. In 
spite of a January 10, 2011, letter signed by then-Finance Minister, 
Desire Dallo, promising to make the coupon payment within the 30-day 
grace period (the payment was due on December 31, 2010), this 
obligation was not honored. This increases the country's risk profile 
in the eyes of potential investors and could impact the cost of 
borrowing.
                   implications for the united states
    The economic costs and consequences of the Ivorian crisis impact 
U.S. interests.
    First, because leading U.S. agro-business firms (Archer Daniels 
Midland and Cargill) are heavily invested in Cote d'Ivoire, continued 
instability, structural bottlenecks and weakened institutions in that 
country could affect their bottom line. The same is true of the 
lucrative chocolate industry in the United States. Opportunities for 
diversification are slim in the short to medium term. The windfall 
harvests (such as experienced in neighboring Ghana in 2010) and 
anticipated increases in export volumes in Indonesia (following an 
expected downward revision of export taxes later this year) are 
unlikely to cover the shortfall if Cote d'Ivoire's cocoa industry does 
not recover expeditiously.
    Second, uncertainty in Cote d'Ivoire's petroleum sector could 
further heighten concerns about the reliability of supply from West 
Africa, which accounts for about a fifth of U.S. oil imports. Some 
analysts believe that pending exploration could more than double output 
in that country over the medium term. Existing facilities also need to 
be upgraded to enhance efficiency. Prospective investors will be 
concerned about Cote d'Ivoire's creditworthiness given recent defaults 
on bond payments.
    Third, continued weak economic performance would undermine efforts 
to build stable, reliable democratic governance in Cote d'Ivoire, which 
is a strategic objective of the United States. Furthermore, failure to 
address the plight of thousands of small-holder farmers would make IDPs 
and refugees less likely to return.\8\\9\ There is evidence that 
economic conditions weigh heavily on the minds of the displaced. Large 
displaced and disaffected groups could compromise national and regional 
stability and make communities less stable and conflict more 
intractable.
---------------------------------------------------------------------------
    \8\ Ange Aboa and Loucoumane Coulibaly, ``Ivory Coast Cocoa Trade, 
Banking Poised to Restart,'' Reuters, April 26, 2011. (af.reuters.com/
article/topNews/idAFJOE73POHX20110426)
    \9\ Jane Byrne, ``Ivory Coast Cocoa Trade Resumes but Credit Issues 
Remain, Analysts,'' FoodNavigator.com, May 5, 2011. 
(www.foodnavigator.com/Financial-Industry/Ivory-Coast-cocoa-trade-
resumes-but-credit-issues-remain-analysts)
---------------------------------------------------------------------------
                           options for action
    Some analysts anticipate a swift economic recovery for Cote 
d'Ivoire, given its resource endowment and middle income ranking.\10\ 
This is highly unlikely in view of the macro and micro challenges 
already outlined. Rebuilding conflict-affected states, like Cote 
d'Ivoire, is a complex undertaking. The comprehensive guidelines in 
USIP's ``Guiding Principles for Stabilization and Reconstruction'' are 
applicable in the Ivorian context.\11\ This publication emphasizes the 
collectively reinforcing nature of policy instruments that should be 
applied in such cases. These include sustainable economies, security, 
effective governance, the establishment of the rule of law and social 
well-being. This is the key to success in Cote d'Ivoire.
---------------------------------------------------------------------------
    \10\ Scott Stearns, ``U.N. Expects Swift Economic Recovery in Ivory 
Coast,'' Voice of America News, April 14, 2011. (www.voanews.com/
english/news/africa/UN-Expects-Swift-Economic-Recovery-in-Ivory-Coast-
119858994.html)
    \11\ See Beth Cole et al. (eds), ``Guiding Principles for 
Stabilization and Reconstruction,'' United States Institute of Peace 
and U.S. Army Peacekeeping and Stability Operations Institute, USIP 
Press, Washington DC. The conclusions in this manual are echoed in the 
World Bank's 2001 ``World Development Report: Conflict, Security and 
Development.''
---------------------------------------------------------------------------
    Given the nature of economic factors that precipitated and 
sustained violent unrest in Cote d'Ivoire, efforts at economic 
transformation should be anchored on two Es: equity and employment.\12\ 
A history of stark regional and ethnoreligious schisms combined with 
deep distrust contributed to the violence and unrest of recent months. 
An important peace dividend would be the establishment of conditions 
that facilitate equal access and opportunity for all. Targeted programs 
to redress these imbalances could include expanding the provision of 
infrastructure and services, targeted ``access to credit'' programs and 
capacity building initiatives. These must be designed in a conflict-
sensitive manner. By this I mean that care should be taken to avoid 
rewarding ``spoilers'' and it must not be presented a zero-sum solution 
(i.e., groups in the South should not feel punished or excluded, or 
vice versa).
---------------------------------------------------------------------------
    \12\ I refer to economic transformation and not reconstruction 
because the preexisting economic structure is often part of the 
problem. Reconstruction could involve a reestablishment of the status 
quo; this is why transformation is a much better approach in conflict-
affected countries.
---------------------------------------------------------------------------
    Cote d'Ivoire's youthful population is a great asset but it could 
also be a potential powder keg. High rates of unemployment and 
underemployment could precipitate disquiet and unrest.\13\ This is 
particularly worrisome when a significant proportion of the unemployed 
have been involved in the violence and there is a proliferation of 
small arms and light weapons across the country. In addition to 
developing training and retraining programs, serious thought should be 
given to the development of labor-intensive infrastructure programs. In 
addition, close attention should be paid to initiatives that promote 
the development of small- and medium-scale businesses. Cote d'Ivoire is 
a middle-income country with a number of core economic activities 
(agriculture, minerals, finance, and services) around which a wide 
range of small businesses could thrive. Policymakers should resist the 
temptation to rely on the public sector (particularly security 
services) to absorb the bulk of the unemployed, directly or indirectly.
---------------------------------------------------------------------------
    \13\ George Fominyen, ``Returning Ivoirians Fret Over Lack Of Work, 
Security,'' AlertNet, May 12, 2011. (www.trust.org/alertnet/news/
returning-ivorians-fret-over-lack-of-work-security/)
---------------------------------------------------------------------------
    Although the United States and other development partners already 
provide significant humanitarian and development assistance to support 
economic recovery, political stability and security in Cote d'Ivoire, 
the needs remain great and expectations are high.\14\ Consolidating the 
fragile peace necessitates proactive economic interventions by 
international partners in the following areas:
---------------------------------------------------------------------------
    \14\ ``Development Partners Discuss the Urgency of Recovery for 
Cote d'Ivoire,'' World Bank, April 20, 2011. (http://go.worldbank.org/
B6S8DK4HE0)

  <bullet> Address the immediate needs of the cocoa farmers and 
        implement social safety net programs to mitigate the impact of 
        indebtedness caused by recent events.
  <bullet> Invest in programs to improve cocoa yields, minimize post-
        harvest losses and improve the quality of the beans.
  <bullet> Ease bottlenecks by supporting the expansion of cocoa 
        marketing networks, extensions services and credit facilities.
  <bullet> Technical assistance to improve external debt management and 
        restore credibility in international financial markets.
  <bullet> Establish effective monitoring and evaluation programs that 
        are both credible and consistent.
  <bullet> Create mechanisms to engage the private sector and civil 
        society in the provision of humanitarian and development 
        assistance.
  <bullet> Clearly connect short-term assistance (such as security, 
        humanitarian and repair of physical infrastructure) with longer 
        term initiatives (such as strengthening state institutions, 
        fostering inclusive and participatory governance, and promoting 
        market development).
  <bullet> Pay particular attention to small-scale farmers and 
        marginalized groups who have borne a disproportionate share of 
        the economic consequences of the recent unrest.
                               conclusion
    In the months leading up to the 2010 elections Cote d'Ivoire 
benefited from a substantial rescheduling of its debt and millions in 
debt relief.\15\ It also stood to benefit from an economic 
reconstruction package worth over half a billion U.S. dollars. These 
programs will be reinstated relatively quickly. The World Bank 
announced that it will fast-track the release of some $100 million in 
humanitarian assistance and expedite the delivery of $3 billion in debt 
relief.\16\
---------------------------------------------------------------------------
    \15\ International Monetary Fund, ``Cote d'Ivoire: Second Review 
Under the Three-Year Arrangement Under the Extended Credit Facility,'' 
IMF Country Report No. 10/228, July 2010.
    \16\ Nicolas Cook, ``Cote d'Ivoire Post-Gbagbo: Crisis Recovery,'' 
Congressional Research Service, April 20, 2011. (www.fas.org/sgp/crs/
row/RS21989.pdf)
---------------------------------------------------------------------------
    The French government has pledged an additional $577 million, the 
European Commission $260 million and so far the United States has 
provided $33.7 million.\17\ However, care should be taken to avoid 
falling victim to a numbers game. Throwing money at the problem will 
probably worsen the situation. What is needed is a coordinated, 
comprehensive, and conflict-sensitive approach to economic recovery in 
Cote d'Ivoire.
---------------------------------------------------------------------------
    \17\ USAID. ``Cote d'Ivoire--Complex Emergency,'' Fact Sheet #6, 
May 14, 2011. Last modified May 13, 2011. (reliefweb.int/sites/
reliefweb.int/files/resources/Full_Report_639.pdf)

    Senator Coons. Thank you, Dr. Gilpin.
    I'd like to start with a question, if I might, to Dr. 
McGovern. All of you spoke about the critical need for economic 
growth, for reconciliation, and for stability. Dr. McGovern, 
you pointed to the critical need for both judicial and security 
reforms. We've had some success in other countries in the 
region, particularly in security reforms that required 
fundamentally restructuring, almost recreating, the national 
security forces. You also pointed, in your written testimony, 
to some of the very real challenges in getting a judicial 
system that could be a real partner in economic growth and 
could restore a sense of transparency and fairness.
    What do you think are the most critical steps for the new 
government to take? And how can the United States best support 
them in that work?
    Dr. McGovern. The United States is involved, as you know, 
in Liberian security sector reform, and also, to some extent, 
in Guinea. They've been involved in Nigeria and a number of 
other African countries. The Liberian model is drawing the army 
down to zero and starting from scratch. That won't happen in 
Cote d'Ivoire. That's not really politically viable. But, the 
DR Congo sort of model, where you just throw everybody in a pot 
and let them keep whatever rank they gave themselves when they 
were fighting in the bush, is also not very helpful. So, I 
think what I suggested is that drawing on the West African 
expertise and also the American expertise, as Ms. Cooke already 
suggested, the United States can play an important role as a 
neutral party, as an honest broker, in a way that the French 
simply cannot do in Cote d'Ivoire anymore.
    And I think accompanying that process where--as I said, the 
most important thing, to my mind, in the security sector, is 
going to be reestablishing command and control. Officers, right 
now, can be slapped, they can be disobeyed by rank-and-file 
soldiers, with no consequences, as long as the rank-and-file 
soldier has some kind of political backer. And that's a real 
problem. And that's been characteristic in the north, as well 
as the south--people who are just sort of free actors and doing 
what they please. That has to end.
    And that ties into the judicial aspect, the prosecution of 
those who have, you know, committed crimes, is also going to 
contribute to that process.
    Senator Coons. Thank you, Doctor.
    Ms. Cooke, you spoke about the importance of ECOWAS, the 
African Union, and the regional structures and continentwide 
structures that acted fairly quickly and effectively in finding 
a resolution to this crisis. What are the regional implications 
of the outcome of these events in Cote d'Ivoire? What should 
the United States be doing, given those regional implications? 
And I was interested--you mentioned Zimbabwe and SADC--what 
does this teach us about other regions of the continent and how 
we should be engaged there in creating multilateral structures?
    Ms. Cooke. Thank you, Chairman. Yes, I think, actually, 
ECOWAS has shown really tremendous progress, over the years, in 
upholding these principles of democratic governance and 
transparency and peer pressure on members of the group who fail 
to live up to those standards. It has intervened, preemptively, 
in several other West African crises as well that might have 
devolved to something much worse. I think that was important 
here.
    The response of ECOWAS cleared the way for the African 
Union and the U.N. to play a greater and more unified role. And 
I hope that the African Union and SADC will look to the ECOWAS 
model and recognize that consensus and action within a regional 
grouping can pull the international community behind it, with 
substantial support, if it takes that initial diplomatic step.
    So, I think it's a very important model that we should 
encourage and acknowledge. I think we need to commend the 
leadership of Nigeria and President Goodluck Jonathan, who was 
going through his own election preparations at that time. And I 
think acknowledging that will encourage other regional bodies, 
and the African Union as a whole, to follow through on that 
example.
    Senator Coons. Thank you, Ms. Cooke.
    Dr. Gilpin, your other two panel mates emphasize the 
centrality of economic growth, and, in particular, of jobs--of 
the possibility of infrastructure jobs or of other jobs. And 
some folks who are reviewing the situation in Cote d'Ivoire 
suggest the prospects for economic recovery are actually 
relatively good, coming out of a conflict of this intensity, 
because there was relatively little infrastructure damage. But, 
one of the real challenges, right now, as you mentioned, is 
liquidity and access to credit.
    The recent actions by the World Bank--are they sufficient? 
What else needs to be done in order to provide credit access? 
And what do you think are the most constructive or important 
steps the United States could take in addition to those already 
talked about--the security and judicial reforms--that could 
lead to sustained economic growth and job creation for the 
Ivoirian people?
    Dr. Gilpin. Thank you very much, Senator. I would echo 
comments that have already been made, that I believe the United 
States could not only play the role of an honest broker, but 
also provide strategic leadership. After over a decade of 
violent conflict, I think the most important thing that most 
people in Cote d'Ivoire are looking forward to is a tangible 
peace dividend--being able to earn, but also being able to 
build wealth. The international community, both bilateral and 
multilateral, have been very generous in their pledges. But, 
this needs to go beyond the usual development model. It is not 
enough to throw money at the problems. We need to take a closer 
look at some of the structural changes that have happened 
because of the conflict.
    And in terms of liquidity, it's not just an issue of the 
commercial banks being able to make credit available to the 
buyers and traders, it is being able to ensure that all farmers 
have equal access. And for that to happen, we need to take a 
close look at how models of microfinance could be adapted at 
the village level, and so that, irrespective of political 
coloring, religion, or ethnicity, people who have the ability 
to contribute, whether it's in the real economy--agriculture--
the manufacturing economy or the service economy--would be able 
to do this.
    I think the key to their economic recovery is not so much 
what is going to happen in the macrolevel, in terms of foreign 
assistance, but is the ability of small- and medium-scale 
enterprises to restart and start contributing to sustainable 
economic growth.
    The United States could support a lot of NGOs and private 
organizations that are thinking about programs to ensure that 
they are coordinated in a manner that supports the most 
important players in the economy, who I think are the small- 
and medium-scale businesses and also the small-scale farmers.
    Senator Coons. Let me ask one last question, if I might, of 
the panel as a whole. I'm just about out of time. All three of 
you have mentioned that, in your view, the United States can 
play a constructive honest-broker role, and that there are some 
real challenges in either the French or the U.N. continuing to 
play those roles effectively. Given our very constrained 
financial situation, as a country, what do you view as the most 
critical investment the United States can make in the nation of 
Cote d'Ivoire to help advance reconciliation, economic 
stability, and regional integration? If you would, each.
    Dr. McGovern.
    Dr. McGovern. Security sector reform.
    Ms. Cooke. I would agree with that, but I would also add 
diplomatic engagement--a sustained diplomatic engagement beyond 
the immediate crisis, which doesn't cost a whole lot.
    Dr. Gilpin. I think the most important thing would be the 
ability to ensure that there is coordinated assistance. And 
there are many players in Cote d'Ivoire, both state and 
nonstate. Our ability to coordinate foreign assistance has 
challenged us in places like Haiti, Democratic Republic of the 
Congo, and Afghanistan. And we now have an opportunity, in a 
medium-income country, to press the restart button and have 
coordinated, consistent, and long-term, vision-oriented 
reconstruction. I believe the United States could play that 
role and perform that function.
    Senator Coons. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Well, first of all, I don't find a lot of disagreement with 
anything that any of the members on this panel have said. 
They're looking forward to--trying to look forward to seeing--
that's supposed to be the subject of this thing. But, I find a 
couple of things, Dr. McGovern that--to be interesting.
    For one thing, my granddaughter was just accepted into 
Yale, so you'll see Maggie Inhofe walking around the halls.
    Senator Coons. That's a suggestion to be particularly 
generous in your grading. [Laughter.]
    Senator Inhofe. And she needs financial assistance. 
[Laughter.]
    Dr. McGovern, I appreciate some of the things that you have 
said. And I agree with almost everything. I take issue with a 
couple of things.
    First of all, on the threat, I think you are approximating, 
maybe, in the range of 10,000 deaths, and I would only ask 
that--not that you respond now, but you look at some of these 
things that we have. We actually have the videos of going in 
there. And these are the U.N. helicopters--gunships--going in, 
destroying huge parts of the city. I've spent so much time in 
the very parts that I've seen destroyed. I can't see that it's 
even possible that it wouldn't--it isn't at least 10 times that 
number. Just keep that--I would like to have you just keep that 
open.
    Second, I appreciated you talking about that reconciliation 
will not be achieved by a commission. And I agree with that.
    Third, I would like to ask what you think about the 
comments that were made by President Museveni, President Mbeki, 
Obiang, the--Odinga--and you just have to take my word for it, 
there are many, many more that I've talked to personally, 
just--we don't have their names or their permission to use 
them.
    This perhaps was--it was bungled, the way it was handled, 
and that there are so many out there that perceive this as a 
neocolonialism effort by the French--I'd like to have your 
thoughts on that. And then I have one last question to ask.
    Dr. McGovern. Yes. I think that one thing that's very 
important to remember is that the ball started rolling with 
ECOWAS. It was passed to the AU, and then it went from there 
outside of Africa. So, I personally find that it was, 
strategically, a very unfortunate decision to have French 
helicopters join in, in the attacks. I'm sure you've read the 
U.N. Security Council resolution. It was worded in an ambiguous 
way, which may well have given scope for the French to be 
involved. Other people think not.
    In any case, the U.N. mission did have chapter 7 ability 
and was specifically empowered by that resolution to take 
aggressive action against the Gbagbo government. Whether you 
agree with that or not, I think that's clear.
    As far as whether or not it's a neocolonial intervention, I 
think it's important to remember that the reason Laurent 
Gbagbo--in my view, the reason he has been treated differently 
from, say, Robert Mugabe, has a lot to do with the fact that he 
burned his bridges not only with Europeans and with the U.N., 
but also with his peers in West Africa. Having people from his 
FPI party threaten the lives of other West Africans who were 
resident in Cote d'Ivoire--not once, but several times--was 
something that made Nigerians, Burkinabes, others, very angry. 
And it ended up, over time--this is over 5 or 7 years--it ended 
up building a coalition of African leaders who actually 
outnumber the ones that you've listed. And I think that's 
simply a fact.
    Thank you.
    Senator Inhofe. The other thing you had mentioned--and I 
thought it was significant, because, the first panel, in my 
opinion, by making several comments referring to the previous 
10 years, were trying to say this was President Gbagbo. You are 
good enough to be honest about it and say that this goes 
three--it could be maybe two or three decades back. That would 
include the time when Ouattara was the Prime Minister, which 
was--1990 is when that began. So, I think we want to make sure 
that we don't all say that this is all this administration. I 
think that's very significant.
    And also I would like to ask, as a favor, that anyone, 
particularly my colleagues up here, read the article, ``What 
the World Got Wrong in Cote d'Ivoire.'' This was an article 
that was written in the--what was it?--the--which magazine?--
Foreign Policy magazine. That's a well-respected magazine. I 
pretty much agree with everything that's in here.
    Last, I would just say this. Sure, I've given up with what 
I originally intended to do. I thought we had such 
incontrovertible evidence. There isn't anyone on this panel, or 
anyone in this room, who will say that, if President Laurent 
Gbagbo--the first election--got thousands and thousands of 
votes in those northern regions, which they call them, not 
precincts--and then turned around, in the runoff, and got 
zero--that can't happen. We all know that. And all you have to 
do is do your math and you can see this election was up in the 
air.
    Well, there should have been a reelection, another 
election. I did everything I could to make that happen. It's 
not going to happen now. I understand that.
    So, as we look at the things that are open, I would only 
suggest that the option of an effort to put the President and 
the First Lady, and a lot of the others, into an exile 
situation--maybe I'm not using the right word--but, to me, when 
I look at it, and I look at the repercussions, and I look at 
the number of people who I know and who live in Abidjan, in 
that part--in the southern part of Cote d'Ivoire--and I see the 
number of people who are watching and observing, as we're 
sitting here today, the death squads going around and killing 
people in the streets today, right now, that this is something 
that's going on, and it is something that is going to be--
you're going to have to think of some way of reconciliation. To 
me, the best way would be to accept the invitation. And I would 
hope that there are those who are listening, with the State 
Department. I doubt it, but I hope that they are.
    The last thing I would do is, respond to something that Mr. 
Fitzgerald had referred to. You know, if I showed all the 
pictures that I had--you've already seen those--if you still 
come to the conclusion that there's any level of fairness, that 
it wasn't just sheer brutality, I don't know where you could 
come from. But, the statement that President Gbagbo is being 
treated fair--I'm going to ask for--let's look at, first of 
all, the picture of the Laurent Gbagbo that I know, the one 
that I've known for many years--I've known even before he was 
President. There he is, a happy face, jovial man. A lot of 
people loved him. Let's look at his picture today. As you can 
see, the side of his face is kicked in. That's the Gbagbo of 
today.
    Then let's go to Simone. I've gotten to know her very well 
over the years, back when she was a member of Parliament and 
not even married to Laurent Gbagbo--before that time. This is 
the beautiful lady. I don't think anyone's going to question 
how beautiful this lady is. Let's look at Simone today. When 
they ravaged her, they pulled her hair out by the roots--danced 
in the streets. This is all Ouattara's people. We know that. 
Nobody denies that.
    Then the one that is most revealing as to what's happening 
today. There she is, folks. There's Ouattara's people. Use your 
imagination. Just--you know what happened. You know what's 
happening now. And all I can say is, this is a travesty. It's 
something that, in the 15 years that I been in Africa--I've 
visited--I've made 116 African country visits. I have a heart 
for Africa. This is the worst that I've seen.
    I'm going to make every effort to try to encourage people 
to examine very carefully the option of exile. I think that's 
the reasonable thing to do. And I think it's the best thing, in 
terms of going forward, in terms of how people are going to 
keep from being a martyr. And I think that, perhaps, is the 
best of a lot of not too pleasant options that are out there.
    Thank you very much, Mr. Chairman.
    Senator Coons. Thank you, Senator.
    Senator Isakson, we passed over you during this session, 
this round, so I'd defer to you, at this point, for a round of 
questions of the panel.
    Senator Isakson. I deserved being passed over, because I 
was running in and out, trying to handle another situation. So, 
I appreciated the courtesy.
    And I think I'm going to end with the right question for 
the future. And both Ms. Cooke and Dr. McGovern and Dr. Gilpin 
all, in one way or another, referred to it. First, Dr. McGovern 
talked about the genocide in Rwanda, in the post-Rwandan period 
of time. I think Ms. Cooke mentioned the numbers of killed in 
Rwanda, which was a million, and the numbers estimated that may 
have been killed in--was significantly less, although any death 
is significant.
    I've been to Rwanda, and what Kokome did there, I think, 
was somewhat remarkable, to go from a period of genocide 
between the Hutus and the Tutsis, to a country that, today--
although there've been a few issues lately, I know--but, has 
been a remarkable reconciliation. And when I went there to--
what struck me was how they finally got the Hutus and the 
Tutsis together. And they did it economically, by the way. I 
think, when you mentioned jobs, that--I've visited the National 
Basket Company of Rwanda and, in their employment, they require 
a Hutu and a Tutsi to sit side by side. They won't let them get 
in groups. So, they had to work together.
    I don't understand the Cote d'Ivoire complexity as much. I 
think it's both tribal, as well as religious, to a certain 
extent, in terms of the conflict. At least, that's what I 
believe from what I've read. But, that type of example, of what 
Kokome did in Rwanda, seems to me, hopefully, the best look 
forward for the country of Cote d'Ivoire, in terms of improving 
economics, first of all, for the people--providing jobs or 
getting jobs for the people--and then having the tribal and 
ethnic differences work together in those jobs to bring about a 
sense of stability.
    Is that possible? And I'd just ask each one of you to 
comment on that.
    Dr. McGovern. I think it's very possible. Ivoirians, for as 
long as Cote d'Ivoire has existed as nation, have lived 
together, been intermarried, been eating in maquis together, 
dancing together. It's really--it's not an issue. It is made an 
issue by politicians who cynically try to derive some benefit 
from dividing people. But, I think, at the level of the 
ordinary Ivoirian people, it's not a problem.
    Thank you.
    Senator Isakson. Ms. Cooke.
    Ms. Cooke. I think economic growth and prosperity can do a 
lot, in terms of giving political leaders room for 
reconciliation. I think one of the cautions about the Rwandan 
example is that, unless economic prosperity is accompanied by 
truly national institutions, by participatory governance, by an 
open field for political competition--for peaceful political 
competition, that it can come unraveled very quickly.
    Senator Isakson. Understood.
    Ms. Cooke. You have to remember that Cote d'Ivoire was once 
an economic success case. Zimbabwe was once an economic success 
case. Rwanda was once considered an economic model, before the 
genocide. So, prosperity and jobs do give room. They are an 
important part of reconciliation, but not the sole one.
    Senator Isakson. Dr. Gilpin.
    Dr. Gilpin. I would agree with my fellow panelists. I think 
it is possible, but it is not an easy road. And there is a lot 
of work that goes on behind the scenes to ensure that 
reconciliation efforts are both effective and lasting. And the 
trick is to have successful reconciliation efforts moving in 
tandem with efforts to improve the rule of law, efforts to 
improve the regulatory and institutional frameworks, and 
efforts to improve income-generating opportunities for all, 
regardless of creed, regardless of religion, and regardless of 
ethnicity.
    The challenge in bringing this about is something I alluded 
to in my testimony. We have to find a way to ensure that the 
overlap of these important end states, whether it's economic, 
governance, or security--the overlap is very well coordinated 
so it fits the Cote d'Ivoire situation and it enables not just 
the politics, but also socioeconomic factors, to move in a 
positive direction.
    Senator Isakson. Well, I'd like to thank all of our 
panelists for their input today, and thank the Chairman for 
calling this important hearing. Thanks, to all of you.
    Senator Inhofe. Mr. Chairman, could I----
    Senator Coons. Thank you, Senator Isakson.
    Senator Inhofe.
    Senator Inhofe [continuing]. Ask unanimous consent that 
this article that I referred to, ``What the World Got Wrong in 
Cote d'Ivoire,'' be made a part of the record of this 
proceeding today?
    Senator Coons. Without objection.
    Senator Coons. I will also keep the record open, for 
Senators who wish to submit statements for the record, until 
the close of business tomorrow, May 20.
    I want to thank all of our participants today, all five of 
our witnesses, who brought forward some, in my view, very 
compelling and very important testimony for us to consider 
about the appropriate path forward. All of you have raised the 
very real prospect of the central role that the United States 
can play in trying to encourage reconciliation and trying to 
support accountability, transparency, and some positive 
economic growth for a nation that has long been a real model 
for the region. And it is my hope that, working together, we 
can find a peaceful and prosperous path forward for the 
Ivoirian people, who have suffered so long, and that we can 
move forward the reconciliation that is so desperately needed 
in this wonderful country that has so much promise for the 
future.
    Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 5:05 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


         Newspaper Article Submitted by Senator James M. Inhofe

             [From Foreign Policy Magazine, Apr. 29, 2011]

               What the World Got Wrong in Cote D'Ivoire

                            (By Thabo Mbeki)
  why is the united nations entrenching former colonial powers on our 
continent? africans can and should take the lead in resolving their own 
                               disputes.
    The second round of the Nov. 28, 2010, presidential elections in 
Cote d'Ivoire pitted against each other two longstanding political 
opponents, Laurent Gbagbo and Alassane Ouattara. For this reason, and 
of strategic importance, it was inevitable that this electoral contest 
would decide the long-term future of the country. Everybody concerned 
should have probed very seriously the critical question: Would the 2010 
elections create the conditions that would establish the basis for the 
best possible future for the Ivorian people?
    This was not done.
    Rather, the international community insisted that what Cote 
d'Ivoire required to end its crisis was to hold democratic elections, 
even though the conditions did not exist to conduct such elections. 
Though they knew that this proposition was fundamentally wrong, the 
Ivorians could not withstand the international pressure to hold the 
elections.
    However, the objective reality is that the Ivorian presidential 
elections should not have been held when they were held. It was 
perfectly foreseeable that they would further entrench the very 
conflict it was suggested they would end.
    The 2002 rebellion in Cote d'Ivoire divided the country into two 
parts, with the north controlled by the rebel Forces Nouvelles, which 
supported Alassane Ouattara, and the south in the hands of the Gbagbo-
led government. Since then, Cote d'Ivoire has had two governments, 
administrations, armies, and ``national'' leaders.
    Any elections held under these circumstances would inevitably 
entrench the divisions and animosities represented and exacerbated by 
the 2002 rebellion.
    The structural faults which lay at the base of the 2002 rebellion 
include such inflammable issues as trans-national tensions affecting 
especially Cote d'Ivoire and Burkina Faso, Ivorian ethnic and religious 
antagonisms, sharing of political power, and access to economic and 
social power and opportunities.
    In this regard, the international community has assiduously 
suppressed proper appreciation of various explosive allegations which, 
rightly or wrongly, have informed and will continue to inform the views 
of the Gbagbo-supporting population in southern Cote d'Ivoire--and much 
of Francophone Africa!
    These are that Ouattara is a foreigner born in Burkina Faso, that 
together with Burkinabe President Blaise Compaore he was responsible 
for the 2002 rebellion, that his accession to power would result in the 
takeover of the country especially by Burkinabe foreigners, and that 
historically, to date, he has been ready to advance French interests in 
Cote d'Ivoire.
    Taking all this into account, the African Union understood that a 
lasting solution of the Ivorian crisis necessitated a negotiated 
agreement between the two belligerent Ivorian factions, focused on the 
interdependent issues of democracy, peace, national reconciliation and 
unity.
    In protracted negotiations from 2002, the Ivorians agreed that the 
presidential elections would not be held until various conditions had 
been met. These included the reunification of the country, the 
restoration of the national administration to all parts of the Ivorian 
territory, and the disarmament of the rebels and all militia and their 
integration in the national security machinery, with the latter process 
completed at least two months ahead of any presidential elections. 
Despite the fact that none of this was honoured, the presidential 
elections were allowed to proceed.
    In the end, Ouattara has been installed as president of Cote 
d'Ivoire. Gbagbo, and his wife Simone, have ended up as humiliated 
prisoners. Many Ivorians have died and have been displaced, much 
infrastructure has been destroyed, and historic animosities have been 
exacerbated in the lead up to this outcome.
    Many things have gone radically wrong along the road to this 
result.
    Agreements relating to what needed to be done to create conditions 
for free and fair elections were wilfully and contemptuously ignored. 
The Ivorian Constitutional Council (CC) is the only body 
constitutionally empowered to determine the winner in any presidential 
election and to install the president, with the Electoral Commission 
(IEC) mandated to forward its provisional results to the CC. However, 
the very people who insist on the sanctity of the rule of law as 
fundamental to all democratic practice, elected illegally to recognise 
the provisional result announced by the chairperson of the IEC on his 
own, as the authentic outcome of the presidential election.
    As provided by the law, Gbagbo contested the fairness of the 
elections in certain parts of the country, especially the north. The 
CC, rightly or wrongly, accepted the majority of the complaints made by 
Gbagbo, identified other ``irregularities,'' annulled the votes in some 
districts, and declared Gbagbo the victor. The chairperson of the IEC 
did not take these alleged irregularities into account and decided that 
Ouattara had won.
    The envoy of U.N. Secretary-General Ban Ki-moon, his fellow South 
Korean, SRSG Young-jin Choi, also determined that Ouattara had won, but 
on the basis of fewer votes than those announced by the IEC, having 
determined that some of the complaints made by Gbagbo were legitimate. 
In terms of the votes cast for the two candidates, the IEC, the CC, and 
the U.N. SRSG made three different determinations.
    Gbagbo proposed that to resolve this matter, which bears on the 
important issue of the will of the Ivorian people, an international 
commission should be established to verify the election results, with 
the important pre-condition that both he and Ouattara should accept the 
determination of the commission.
    This proposal was rejected by the international community--despite 
the fact that it would have resolved the electoral dispute without 
resort to war, and despite the fact that some election observers 
questioned the fairness of the elections, especially in northern Cote 
d'Ivoire.
    For instance, reporting on the elections in the north, the election 
observer mission of the AU led by Joseph Kokou Kofigoh, former prime 
minister of Togo, the independent civil society Societe Chile Africaine 
pour la Democratie et l'Assistance Electoral led by Seynabou Indieguene 
of Senegal, and the Coordination of African Election Experts (CAEE) 
from Cameroon, Senegal, Benin, Mali, Morocco, Gabon, and Togo led by 
Jean-Marie Ongjibangte of Cameroon, all sounded the alarm about the 
elections in the north.
    For instance, the CAEE said: ``After sharing information with other 
national and international election observers, we hereby state that the 
second round of the presidential elections in Cote d'Ivoire was held 
amidst major problems in (various northern) regions . . .
    ``These problems were stealing of ballot boxes, arresting of 
candidates' representatives, multiple voting, refusal to admit 
international observers to witness counting of ballots, and the murder 
of representatives of candidates. To that effect, we hereby declare 
that the second round of voting was not free, fair and transparent in 
these (northern) localities.''
    For its part, to this day, the ECOWAS election observer mission has 
not issued its report on the second round of the presidential election! 
Why?
    Clearly the independent international commission proposed by 
Laurent Gbagbo could have been established and empowered to make a 
definitive and binding determination about what had happened. Time will 
tell why this was not done!
    Further, the U.N. SRSG took the extraordinary decision to exceed 
his mandate by declaring who had won the presidential election, 
contrary to his tasks as detailed by the Security Council. This 
positioned the U.N. Mission in Cote d'Ivoire (UNOCI) as a partisan in 
the Ivorian conflict, rather than a neutral peacemaker, equidistant 
from the belligerent parties.
    From this point onwards, UNOCI had no choice but actively to work 
for the installation of Ouattara as president of the country and the 
removal of Gbagbo. Ultimately, this found expression in the blatant use 
of its military capacities to open the way for the Forces Nouvelles to 
defeat the Gbagbo forces and capture Gbagbo, under the shameless 
pretence that it was acting to protect civilians.
    While obliged to respect its peacekeeping mandate, which included 
keeping the belligerent forces apart, UNOCI did nothing to stop the 
advance of the Forces Nouvelles from the north to the south, including 
and up to Abidjan. Nor did UNOCI or the French Licorne forces, as 
mandated by the United Nations, act to protect civilians in the area of 
Duekoue, where, evidently, the most concentrated murder of civilians 
took place! This recalls the United Nations's failure to end the more 
catastrophic murder and abuse of civilians in the eastern Democratic 
Republic of the Congo!
    The Ivorian reality points to a number of incontrovertible 
conclusions.
    The agreed conditions for the holding of democratic elections in 
Cote d'Ivoire were not created. Despite strong allegations of electoral 
fraud, the international community decided against conducting any 
verification of the process and the announced results. This left 
unanswered the vitally important question of who actually had won the 
elections, which Ouattara might have done.
    The United Nations elected to abandon its neutrality as a 
peacemaker, deciding to be a partisan belligerent in the Ivorian 
conflict.
    France used its privileged place in the Security Council to 
position itself to play an important role in determining the future of 
Cote d'Ivoire, its former colony in which, inter alia, it has 
significant economic interests. It joined the United Nations to ensure 
that Ouattara emerged as the victor in the Ivorian conflict.
    This addressed the national interests of France, consistent with 
its Francafrique policies, which aim to perpetuate a particular 
relationship with its former African colonies. This is in keeping with 
remarks made by former French President Francois Mitterand when he 
said, ``Without Africa, France will have no history in the 21st 
century,'' which former French foreign minister Jacques Godfrain 
confirmed when he said: ``A little country [France], with a small 
amount of strength, we can move a planet because [of our] . . . 
relations with 15 or 20 African countries . . . ''
    The AU is also not without blame, as it failed to assert itself to 
persuade everybody to work to achieve reconciliation among the 
Ivorians, and therefore durable peace. Tragically, the outcome that has 
been achieved in Cote d'Ivoire further entrenches the endemic conflict 
in this country. This is because it has placed in the exclusive hands 
of the failed rebellion of 2002 the ability to determine the future of 
the country, whereas the objective situation dictated and dictates that 
the people of Cote d'Ivoire should engage one another as equals to 
determine their shared destiny.
    During the decade he served as president of Cote d'Ivoire, Gbagbo 
had no possibility to act on his own to reunify the country and achieve 
reconciliation among its diverse people, despite the existence of 
negotiated agreements in this regard. As he serves as president of the 
country, Ouattara will not succeed to realise these objectives, acting 
on his own, outside the context of honest agreement with the sections 
of the Ivorian population represented by Gbagbo.
    What was to come was foreseen by the then U.S. ambassador in Cote 
d'Ivoire, Wanda L. Nesbitt. In July 2009, she advised the U.S. 
government:
    ``It now appears that the Ouaga IV agreement, [the fourth agreement 
to the Ouagadougou Political Agreement which prescribed that 
disarmament should precede the elections], is fundamentally an 
agreement between Blaise Compaore [President of Burkina Faso] and 
Laurent Gbagbo to share control of the north until after the 
presidential election, despite the fact that the text calls for the 
Forces Nouvelles to return control of the north to the government and 
complete disarmament two months before the election . . .
    ``But the 5,000 Forces Nouvelles soldiers who are to be 
``disarmed'' and regrouped into barracks in four key cities in the 
north and west until a new national army is created, represent a 
serious military capability that the FAFN [Forces Nouvelles] intends to 
keep well-trained and in reserve until after the election. The hand-
over of administrative power from the FAFN to civilian government 
authorities is a pre-requisite for elections but, as travelers to the 
north (including Embassy personnel) confirm: the FAFN retain de facto 
control of the region especially when it comes to finances.''
    The failure to address the ``pre-requisite for elections'' 
predetermined their outcome. The rebel ``control'' of the north, 
mentioned by Ambassador Nesbitt, prescribed the outcome of the 2010 
presidential election. Similarly, it was the ``military capability'' of 
the rebellion, which Ambassador Nesbitt mentioned, that was used to 
ensure that Ouattara became president of Cote d'Ivoire.
    It is little wonder that as the post-election crisis deepened, 
Laurent Gbagbo would cry out: I was betrayed! At the end of it all, 
there are many casualties.
    One of these is the African Union. The tragic events in Cote 
d'Ivoire have confirmed the marginalization of the union in its ability 
to resolve the most important African challenges.
    Instead, the AU has asserted the ability of the major powers to 
intervene to resolve these challenges by using their various capacities 
to legitimize their actions by persuading the United Nations to 
authorise their self-serving interventions.
    The United Nations is yet another casualty. It has severely 
undermined its acceptability as a neutral force in the resolution of 
internal conflicts, such as the one in Cote d'Ivoire. It will now be 
difficult for the United Nations to convince Africa and the rest of the 
developing world that it is not a mere instrument in the hands of the 
world's major powers. This has confirmed the urgency of the need to 
restructure the organisation, based on the view that as presently 
structured the United Nations has no ability to act as a truly 
democratic representative of its member states.
    Thus, in various ways, the events in Cote d'Ivoire could serve as a 
defining moment in terms of the urgent need to reengineer the system of 
international relations. They have exposed the reality of the balance 
and abuse of power in the post-Cold War era, and put paid to the 
fiction that the major powers respect the rule of law in the conduct of 
international relations, even as defined by the U.N. Charter, and that, 
as democrats, they respect the views of the peoples of the world.
    We can only hope that Laurent and Simone Gbagbo and the Ivorian 
people do not continue to suffer as abused and humiliated victims of a 
global system which, in its interests, while shouting loudly about 
universal human rights, only seeks to perpetuate the domination of the 
many by the few who dispose of preponderant political, economic, 
military and media power.
    The perverse and poisonous proceedings that have afflicted Cote 
d'Ivoire pose the urgent question: How many blatant abuses of power 
will Africa and the rest of the developing world experience before the 
vision of a democratic system of global governance is realised?
                                 ______
                                 

Responses of Deputy Assistant Secretary William Fitzgerald to Questions 
                 Submitted by Senator Christopher Coons

    Question. You mentioned that the State Department is considering 
lifting restrictions on assistance to Cote d'Ivoire which have been in 
place since 1999. What additional forms of aid do you hope to provide 
to Cote d'Ivoire, and what legal restrictions stand in the way?

    Answer. Currently, direct assistance to the Government of Cote 
d'Ivoire is limited due to restrictions under section 7008 of the 
Department of State, Foreign Operations, and Related Programs 
Appropriations Act (SFOAA.) These restrictions were imposed following a 
military coup in December 1999. When these restrictions are lifted, 
U.S. assistance in Cote d'Ivoire will focus on political 
reconciliation, economic recovery, and security sector reform 
initiatives as part of the international effort to support President 
Ouattara's outlined plan for governing.

    Question. As the State Department reviews its policies toward Cote 
d'Ivoire, what concrete benchmarks will you use to measure the 
commitment to good governance by the Ouattara government? What steps 
can President Ouattara take to meet such benchmarks, and how might the 
ongoing government formation and reconciliation process impact U.S. 
policy going forward?

    Answer. An important benchmark for governance will be holding 
legislative elections in a timely manner, which will help ensure that 
the Ivoirian Government is representative and responsive. Additionally, 
following through on President Ouattara's commitments to cooperate with 
impartial investigations into the alleged human rights abuses during 
the post-election period will be an important element of reconciliation 
and set the tone for good governance moving forward. This includes 
cooperation with the International Criminal Court's investigation, as 
well as the consideration of any recommendations that may come from the 
United Nations Commission of Inquiry. We will continue to engage with 
President Ouattara to ensure that reconciliation and good governance 
remain top priorities as he makes key decisions about the makeup of his 
government and future policies.

    Question. What do you envision as both the U.S. and broader 
international role in supporting the disarmament, demobilization, and 
reintegration (DDR) process in Cote d'Ivoire? Are we currently 
providing any form of assistance to the Republican Forces of Cote 
d'Ivoire (FRCI) and is the State Department considering expanding such 
assistance in the future? To what degree are you consulting with DOD--
especially AFRICOM--on this issue?

    Answer. In the short term, U.S. and international efforts on DDR 
will likely be focused on support for the United Nations' DDR programs. 
In the longer term, as President Ouattara outlines his plans for broad 
security sector reform, the United States and the international 
community will play an important role in supporting 
professionalization, training, and reform of the military, police, and 
gendarmes. Due to longstanding restrictions on assistance to the 
Government of Cote d'Ivoire, we are not currently providing any form of 
assistance to the FRCI. We are working closely with the Department of 
Defense and AFRICOM, as well as international partners, to explore 
options for supporting security sector reform should those restrictions 
be lifted.

    Question. How do you assess the role of the U.N. Operation in Cote 
d'Ivoire (UNOCI) over the past 6 months, and what is its projected role 
going forward? Does it have sufficient financial, logistical, personnel 
means to fulfill its mandate, and what steps can the United States take 
to support its efforts?

    Answer. The United Nations Operation in Cote d'Ivoire (UNOCI) 
played a very important role as a part of the wider international 
effort to end the conflict in Cote d'Ivoire and to ensure that the 
results of credible elections were respected. Following former 
President Gbagbo's use of heavy weaponry against unarmed civilians, the 
U.N. Security Council called for the UNOCI and French military force 
Licorne to act under their mandates and take ``all necessary measures'' 
to protect civilians under imminent threat, including by neutralizing 
heavy weapons in and around Abidjan. These operations were critical in 
preventing further escalation of violence in Abidjan.
    UNOCI's current mandate includes provision of logistical and 
technical support for the legislative elections, and contains a 
certification role for the Special Representative (SRSG). UNOCI's 
support for the disarmament, demobilization and reintegration of ex-
combatants from both sides of the conflict will also be an important 
factor in stabilizing the more volatile regions and creating a safe 
environment for legislative elections to proceed.
    We remain closely engaged with the SRSG in Abidjan and the U.N. 
Department of Peacekeeping Operations to ensure that UNOCI has the 
resources it needs to carry out its mandate, and as we consider options 
for further U.S. assistance in these areas we will ensure that our 
efforts complement, rather than duplicate, UNOCI's work.

    Question. Cote d'Ivoire has been on the Global Office of 
Trafficking in Persons (G/TIP) Tier 2 Watch List for the past 2 years 
and there is an expectation that it may be downgraded to Tier 3. 
Understanding that the State Department may not be able to comment in 
advance of the release of the G/TIP report in June, what are State's 
plans for reaching out to the Ouattara Ivoirian Government on this 
issue? Is it possible that prospective sanctions would interfere with 
U.S. aid for Cote d'Ivoire?

    Answer. Trafficking in persons remains a key element of our overall 
engagement with the Government of Cote d'Ivoire, as it was under former 
President Gbagbo as well. We will press for trafficking in persons and 
other human rights concerns to be prioritized as the new government is 
formed and policies are announced. Should Cote d'Ivoire be ranked Tier 
3 in the TIP Report, it would potentially be subject to sanctions under 
the TVPA, which could restrict some forms of U.S. assistance to the 
country.
                                 ______
                                 

    Responses of Assistant Administrator Nancy Lindborg to Questions
               Submitted by Senator Christopher A. Coons

    Question. In your testimony you state that U.S. assistance will be 
a temporary bandage unless Cote d'Ivoire gains stability and an 
effective governing structure. What steps must be taken by President 
Ouattara to improve governance to ensure the impact of humanitarian 
assistance is lasting and sustainable?

    Answer. The challenges faced by the Ivoirian Government are many 
and multifaceted. The degree to which Cote d'Ivoire forms an effective 
and legitimate government will determine the sustainability of our 
humanitarian assistance. Key steps in this process will include 
creating the conditions for reconciliation, accountability, security 
sector reform, and economic opportunities.
    Ensuring the impact of our assistance will require the new 
government to avoid the exploitation of religion and ethnicity for 
political gain. Thus the Government of Cote d'Ivoire will need to 
promote reconciliation and restore the trust between the state and its 
citizens, working closely with the country's vibrant business and civil 
society communities. Broad-based political participation will instill a 
sense of confidence in the Ivorian people and create the conditions for 
unity. The government has done a good job in promoting messages of 
reconciliation and should continue to build this foundation for peace 
and prosperity for which Cote d'Ivoire was once known.
    Likewise, accountability will play a key role moving Cote d'Ivoire 
beyond conflict. The nascent Truth and Reconciliation Commission is a 
forum to address past injustices and transition to an era of respect 
for human rights and democracy. Prosecution should be based on the 
extent of rights abuses and done regardless of political affiliation. 
Individuals that committed human rights abuses from both sides need to 
be held accountable and brought to justice.
    Many of the reported abuses have been committed by the country's 
security sector. Reforming this sector will be one of the Ivorian 
Government's greatest challenges and should be supported. The 
transformation of the security forces into a trusted institution will 
ensure long-term stability. Additionally, it will create confidence in 
the new government that it can provide essential services to regions 
plagued by violence and impunity.
    Cote d'Ivoire was once known as an African success story with a 
vibrant economy. Its people remain proud and eager to restore this 
reputation. The cocoa, cotton, and cashew industries have great 
potential and could again provide jobs for thousands of Ivoirians 
throughout the country. The ability of these sectors to create economic 
opportunities will reduce the need for further humanitarian assistance.

    Question. Describe the challenges USAID faces in allocating funds 
in Cote d'Ivoire, especially without a mission on the ground. To what 
extent might reprogramming be necessary, and how will this impact the 
scope and amount of requested funds in the next fiscal year?

    Answer. USAID's FY 2011 and FY 2012 budget requests for Cote 
d'Ivoire were limited to health and humanitarian assistance activities, 
largely as a result of political turmoil and sanctions currently in 
place. USAID and the State Department are currently reviewing options 
for assistance and potential funding availability as we craft the FY 
2011 operating year budget. Given limited resources, USAID and State 
will need to be selective in the types of activities initiated in Cote 
d'Ivoire to ensure that we are fully utilizing our comparative 
advantage and coordinating our work with other donors.
    In lieu of a bilateral mission, USAID programs in Cote d'Ivoire are 
managed from the West Africa Regional Mission in Accra, Ghana. One 
full-time Senior Heath Officer provides oversight for the portion of 
the President's Emergency Plan for AIDS Relief (PEPFAR) program managed 
by USAID. Broader USAID engagement in Cote d'Ivoire will require a 
reevaluation of management structure and support.
    The Africa budget requests for FY 2013 will take into account the 
current situation in Cote d'Ivoire as well as USAID's regional 
priorities in Africa.

                                  <all>

</pre></body></html>
